No.

IN THE
SUPREME COURT OF THE UNITED STATES

DAVID CLAYTON CONERLY—PETITIONER
VS,
UNITED STATES OF AMERICA—RESPONDENT
APPENDIX IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI
TO THE U.S. COURT OF APPEALS FOR THE NINTH CIRCUIT

Steven S. Lubliner (California State Bar No. 164143)
LAW OFFICES OF STEVEN S. LUBLINER
PO. Box 750639
Petaluma, CA 94975
Phone: (707)789-0516
e-mail: sslubliner@eomcast.net
Attorney for Petitioner David Clayton Conerly

FILED

NOT FOR PUBLICATION

JAN 14 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

U.S COURT OF APPEALS

No. 18-10454
DC. No. 4; 17-er-0G578-JSW-1

v.
MEMORANDUM*
DAVID CONERLY, AKA David Clayton
Conerly,
Defendant-Appellant.
Appeal from the United States District Court
for the Northern District of California
Jeffrey S. White, District Judge, Presiding
Submitted January 8,2020**
Before:

CALLAHAN, NGUYEN, and HURW1TZ, Circuit Judges.

David Conerly appeals from the district court’s judgment and challenges the
108-month sentence imposed following his guilty-plea conviction for being a felon
in possession of a firearm and ammunition, in violation of IS U.S.C. § 922(gXl).
We have jurisdiction under 28 U.SXL § 129C and we affirm.

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

CERT. APP. 1

Conerly contends that the district court erred by applying a four-level
enhancement under ILS&G. § 2K2.1(b)(6)(B) for using or possessing a ireaon in
connection with another felony offense. We review the district court’s
interpretation of the Guidelines de novo, its factual findings for clear error, and the
court’s application of the Guidelines to the facts for abuse of discretion. See
United States v. Gasca-Ruiz, 852 F.3d 1167, 1170 (9th Cir. 2017) (en banc).
The district court’s finding that Conerly possessed cocaine base with the
intent to sell was not “illogical, implausible, or without support in inferences that
may be drawn from the facts in the record.” United States v. Hinkson, 585 F.3d
1247, 1263 {9th Cir. 2009) {en banc). The totality of the evidence in the record
supports the district court’s finding that Conerly’s possession of the firearm
potentially emboldened his efforts to sell crack cocaine, see United States v.
Polanco, 93 F.3d 555, 567 (9th Cir. 1996), and the court did not abuse its
discretion, by applying the section 2K2.1 (b)(6)(B) enhancement, sec Gasca-Ruiz,
852 F.3d at 1170.
AFFIRMED.

CERT. APP. 2

Case: 18-10454, 04/16/2020, ID: 11663225, DktEntry: 42, Page 1 of 1

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

APR 16 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
PlaintiffAppellee,
v.

DAVID CONERLY, AKA David Clayton
Conerly,

No. 18-10454

D.C. No. 4:17-cr-00578-JSW-l
Northern District of California,
Oakland
ORDER

Defendant-Appellant.
Before:

CALLAHAN, NGUYEN, and HURWITZ, Circuit Judges.

The panel has voted to deny the petition for panel rehearing.
The hill court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Conerly’s petition for panel rehearing and petition for rehearing en banc
(Docket No. 40) arc denied.

CERT. APP. 3

Case 4:17-cr-0Q578-JSW Document 68 Filed 11/2 <718 Page 1 of 8
AO 2*15B (Rev. AO 11 /i 6-CAN 04/18) Judgment in Criarina} Case

United States District Court
Northern District of California
UNITED STATES OF AMERICA
y.
David Conerly

) JUDGMENT IN A CRIMINAL CASE
)
)
)
)
)

USDC. Case Number: CR-17-005 78-001 JSW
BOP Case Number: DCAN417CR00578-001
USM Number:: 19176-111
Defendant’s Attorney: Alan Dressier (Appointed)

THE DEFENDANT:
|*7; pleaded guilty to count(s): One of the Indictment
P* pleaded nolo contendere to count(s): which- was accepted by the court,
n was found guilty on count(s): after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
Nature of Offense
18U.S.C, § 922(g)(1)
Felon in Possession of a Firearm and Ammunition

Offense Ended
November 2, 2017

Count
One

The defendant k sentenced a§ provided in pages 2.througk_8_of this judgment The sentence is imposed pursuant ta the Sentencing.
Reform Act of 1984.
r~
i.....

f~

The defendant has been found not guilty on count(s):
Count(s) dismissed on the motion of the United States.

It is ordered thatihe defendant, must notify the United Stales attorney for this district within 30 days ofany change .of name residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fiilly paid. If ordered to pay
restitution, the defendant must notify the court and United States attorney of material changes in economic circumstances.
11/20/20IS

Daie^efpiiposition of Judgment
/.

/ /
jlidgjjr

Jeffrey S, White
United States District Judge
Name & Title of Judge
November .27,2018
Date

CERT. APP. 4

Case 4:17-cr-00578-JSW Document 68 Filed! 1/27/18 Page 2 of 8
AO 245B (Rev. AO 11 /16-CAN 04/18) Judgment in Ctiminai Case

DEFENDANT: David Conerly
CASE NUMBER: CR-17-00578-001 JSW

Judgment - Page 2 of 8

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
1 08 months
The appearance bond is hereby exonerated, or upon surrender of the defendant as noted below. Any cash bail plus interest shall be
returned to the ownerfs) listed on the Affidavit of Owner of Cash Security form on foie in the Clerk’s Office.
0
0

The Court makes the following recommendations to the Bureau of Prisons:
The defendant participates in the Residential Drug Abuse Treatment Program (RDAP) and be housed in a BOP facility as
close to the San Francisco Bay Area as Possible, ft is further recommended die defendant be housed at FCI Lompoc.
The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to foe United States Marshal for this district:
f"j

at on (no later than 2:00 pm).

[j

as notified by foe -United States Marshal.

The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
Fj

at on (no later than 2:00 pm).

0

as notified by foe United States Marshal.

n

as notified by the Probation or Pretrial Services Office.

RETURN
T have executed this judgment as follows:

Defendant delivered an

to

at

, with a certified copy of this judgment

UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL

CERT. APP. 5

Case 4:17-cr-00578-JSW Document 68 Filed 11/27/18 Page 3 of 8
AO 245B4R^v;AOJJ/16^CAN04/l 82niuij£mentjnCriminal Cii3ci

Judgment - Page 3 of 8

DEFENDANT: David Conerly
CASE NUMBER: CR-17-00578-001 JSW

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a tern of: Three 73 J years

MANDATORY CONDITIONS OF SUPERVISION
1)
2)
3)

5)

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug, tests thereafter, as determined by the court.
[" The above drug testing condition is suspended, based on the court's determination that you pose a low risk of
future substance abuse, (check ifapplicable)
f~! You must make restituti on in accordance with 18 U.S. C. § § 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check ifapplicable)
!?; You must cooperate in fee collection ofDNA as directed by fee probation officer, (check ifapplicable)

6)

{j You must comply wife fee requirements of fee SexGffender Registration and Notification Act (34 U. SC. -§ 20901, et

4)

7)

f“;

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense, (check ifapplicable)
You must participate in an approved program for domestic violence, (check ifapplicable)

You must comply with fee standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

CERT. APP. 6

Case 4:17-cr-00578-JSW Document 68 Fiied 11/27/18 Page 4 of 8
jA^245^fReviA^lJi/16^CAN04^8^JudgmefrtinCrimi2ialCasc<

DEFENDANT: David Conerly
CASE NUMBER: CR-17-00578-001 JSW

Judgment - Page 4 of 8

STANDARD CONDITIONS OF SUPERVISION
As-part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for year behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court, and bring about improvements in your conduct and condition.
1)
2)
3)
4)
5)
6)

7)

8)

9)

10)
-11)
12)

r~

You must report to die probation office in the federal judicial district where you are authorized to reside within 72 hours of
RELEASE, unless the probation officer instincts you to report to a different probation office or within a different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how
and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave tire federaljudicial district where you are authorized to reside without first getting permission
from the court or the probation officer.
You must follow the instructions of the probation officer related to the conditions of supervision.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with, for example}, you must notify the probation officer at least 10 days
before the change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must
notify the probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by these and the special conditions of your supervision that he or she observes in plain
view.
You must work at least part-time (defined as 20 hours per week) at a lawful type of employment unless excused from doing
so by the probation officer for schooling, training, community service or other acceptable activities. If you plan to change
where you work or anything about your work (such as your position or your job responsibilities), you must notify the
probation officer at least 10 days before the change. If notifying the probation officer at least 10 days in advance is not
possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of becoming aware of a
change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. You must not associate,
communicate, or interact with any person you know has been convicted of a felony, -unless granted permission to do so by the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not act or make any agreement with a law-enforcement agency to act as a confidential human source or informant
without first getting the permission of tire court.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything
that was designed,, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).

If the probation officer determines that you pose a risk to a third party, the probation officer may require you to notify the
person about the risk and you must comply with that instruction. The probation officer may contact the person and confirm
that you have notified the person about the risk, (check ifapplicable)

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment -containing these conditions. 1 understand that tire court may {1} revoke supervision, (2) extend -the term of supervision,
and/or (3) modify the conditions of supervision upon a finding of a violation of probation or supervised release.

(Signed)
Defendant

Date

U.S. Probation Officer/Designated Witness

Date

CERT. APR. 7

Case 4:17-cr-00578-JSW Document 68 Filed 1.1/2 7/18 Page 5 of 8
_^O245B^Rcv;^^ll/l6CAN04AS^JudgBMntHiCriiamalCa$c

DEFENDANT: David Conerly
CASE NUMBER: CR-17-00578-001 JSW

Judgment - Page 5 of 8

SPECIAL CONDITIONS OF SUPERVISION
1. When not employed at feast part-time and/or enrolled in an educational or vocational program, you must perform
up to 20 hours of community service per week as directed by the probation officer.
2. You must pay any special assessment that is imposed by this judgment and that remains unpaid at the
commencement of the term of supervised release.
3, You must submit your person, residence, office, vehicle, electronic devices and their date (including cell phones,
computers, and electronic storage media), or any property under your control to a search. Such a search must be
conducted by a United States Probation Officer or any federal, state or local law enforcement officer at any time with
nr without suspicion. Failure to submit to such a search may be grounds for revocation; you must warn any residents
that the premises may be subject to searches.
4. You must participate in a program ofdrug testing. Ifyou submit a urinalysis specimen which tests positive fbr.illegal
substances or you admit to the use of illegal substances, you must participate in a program of testing and treatment for
drug and/or alcohol abuse, until such time as you are released from treatment You are to pay part or all of the cost of
this treatment, at an amount not to exceed the cost of treatment. The actual co-payment schedule must be determined
. by the probation officer.
5. You must cooperate in the collection of DM A as directed by the probation officer.

CERT. APP. 8

Case 4;17-cr-00578-JSW Document 68 Filed 11/27/18 Page 6 of 8
AO 245B (Rev. AO 11 /I &-CAN 04/1 8) Jutlsment in Criminal Case

DEFENDANT: David Conerly
CASE NUMBER: CR-17-00578-001 JSW

Judgment - Page 6 of 8

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments.
Assessment
TOTALS

r

$ 100.00

JVTA Assessment*
N/A

Fine
Waived

Restitution
None

The determination: of restitution is deferred until. Art Amended Judgment in a Crimmai Case (AO 245C) wilt be entered after
such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United States is paid.

Name of Payee

TOTALS

r~
O

Total Loss**

Restitution Ordered

$ 0.00

$ 0.00

Priority or Percentage

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full
before the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6
may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
jH
(~j

the interest requirement is waived for the.
die interest requirement is waived for the is modified as follows:

* Justice tor Victims of Trafficking Act .of 2015, Pub. L. No. 1 ] 4-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, I10A, and 113A of Title 18 for offenses committed on or after September 13,1994,
but before April 23,1996.

CERT. APR. 9

Case 4:17-cr-00578“JSW Document 68 Filed 11/27/18 Page 7 of 8

DEFENDANT: David Conerly
CASE NUMBER: CR-17-00578-001 JSW

Judgment - Page 7 of 8

SCHEDULE OF PAYMENTS
"Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as Follows*:
A

Lump sum payment of
fj

r:

not later than , or
in-accordance with

due immediately, balance due

£ ” C,

SP D, or

i i E, and/or
C,

D F below); or

B

fj

Paymentto begin immediately (may be combined with

O D, or f”j F below); or

C

|~

Payment in equal (e.g., weekly, monthly, quarterly) installments of _ over a period of (e.g., months or years), to
commence (e.g., 30 or 60 days) after the date of this judgment; or

D

p

Payment in equal (e.g., weekly, monthly, quarterly) installments of _ over a period of (eg., months or years), to
commence (e.g., 30 or 60 days) after release from imprisonment to a term of supervision; or

E

f~

Payment during the term of supervised release will commence within (e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

jyn

Special instructions regarding the payment, of criminal monetary penalties:
When incarcerated, payment of criminal monetary penalties, Sl ttO Special Assessment, is due during imprisonment
at the rate of not less than $25 per quarter and payment shall be through the Bureau of Prisons Inmate Financial
Responsibility Program. Criminal monetary payments shall be made to the Clerk of U.S. District Court, 450
Golden Gate Ave., Box 36060, San Francisco, CA 04102.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to fee clerk of fee court
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
C Joint and Several
Case Number
Defendant and Co-Defendant Names
(including defendant number)

Total Amount

Joint and Several
Amount

Corresponding Payee,
if appropriate

H

The defendant shall pay thc cost of prosecution,

fj

The defendant shall pay the following court cost(s):

1*3

The defendant shall forfeit fee defendant’s interest in the following property to the United States: a .40 caliber Glock 22
handgun bearing serial number HUL232, and 17 rounds of .40 caliber ammunition, including 11 rounds manufactured by
Winchester, one round by Speer, two rounds by PMC, two rounds by Blazer, and one round by PPU.

|*j

The Court gives notice that this case involves other defendants who may be heldjointly andseverally liable for payment of all
or part of the restitution ordered herein and may order such payment in the future, but such future orders do not affect the
defendant’s responsibility for the full amount of the restitution ordered.

* Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) tine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8J costs, including cost of prosecution and court costs.

CERT. APP. 10

Case 4:17-cr-00578-JSW Document 68 Filed 11/27/18 Page 8 of 8

DEFENDANT: David Conerly
CASE NUMBER CR-17-00578-001 JSW

Judgment - Page 8 of 8

CERT. APP. 11

Case 4:17-cr-00578-JSW Document 77

Filed 01/04/19

Page 1 of 26

PAGES 1-26

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
BEFORE THE HONORABLE JEFFREY S. WHITE, JUDGE
UNITED STATES- OF AMERICA,
)

PLAINTIFF,

NO. CR-17-0578 JSW

1
VS.

TUESDAY, NOVEMBER 20, 2018
)

DAVID CONERLY,

OAKLAND, CALIFORNIA
)
)
)

SENTENCING

DEFENDANTS.
REPORTER'S PARTIAL TRANSCRIPT OF PROCEEDINGS
APPEARANCES
FOR PLAINTIFF:

BY,*

ALEX G. TSE, ESQUIRE
UNITED STATES ATTORNEY
1301 CLAY STREET, SUITE 340S
OAKLAND, CALIFORNIA 94612
BRIG ID MARTIN,
ASSISTANT UNITED STATES ATTORNEY

FOR DEFENDANT:

ALAN DRESSLER, ESQUIRE
6-01 MONTGOMERY STREET,- SUITE 850
SAN FRANCISCO, CALIFORNIA 94111

ALSO PRESENT:

MALIK RICARD, U.S. PROBATION

REPORTED BY:

DIANE E. SKILLMAN, CSR 4909, RPR, FCRR
OFFICIAL COURT REPORTER

TRANSCRIPT PRODUCED BY COMPUTER-AIDED TRANSCRIPTION

DIANE E. SKILLMAN, OFFICIAL COUNT REPORTER, USDC
CERT. APP. 12

Case 4:17-cr-00578-JSW Document 77 Filed 01/04/19

1
2
3
4
5

Page 4 of 26

4

CASE.
THE REQUEST TO HAVE NEW COUNSEL IS DENIED-

WE'LL NOW

PROCEED WITH SENTENCING.
NOW, MS. MARTIN, HAVE YOU HAD AN OPPORTUNITY TO REVIEW THE
PRES LICENCE REPORT ?

6

MS. MARTIN:

7

THE COURT:

-'8

-MS. MARTIN:

9

THE COURT:

YES, YOUR HONOR.
DO YOU HAVE ANY OBJECTIONS?
NO, YOUR HONOR.
NOW, MR. CONERLY AND COUNSEL,

10

MR. DRESSLER, HAS RAISED A COUPLE OF ISSUES WITH RESPECT TO

11

THE GUIDELINE CALCULATION, THAT IT'S INCUMBENT UPON THE COURT

12

TO DECIDE.

13

OBJECTIONS TO THE GUIDELINE CALCULATION THAT HAS AN IMPACT ON

14

THE CALCULATION.

/•

15

ON ONE OF THEM — AND THERE IS BASICALLY TWO MAJOR

I’LL WAIT FOR MR.. DRESSLER TO GET HIS PAPERS.

16

MR. DRESSLER:

17

THE COURT:

18

SORRY, YOUR HONOR.

OKAY.

THANK YOU.

SO THE FIRST IS THAT MR. CONERLY OBJECTS TO THE FOUR-LEVEL

19

ENHANCEMENT UNDER GUIDELINE 2. — 2K2.1(B)(6) REGARDING

20

POSSESSION OF -COCAINE PASS FOR SALE AND -WHETHER OR -NOT THE

21

DEFENDANT POSSESSED THE FIREARM WITH WHICH — AS TO WHICH HE

22

HAS BEEN

23

HE SUPPOSED THAT IN CONNECTION WITH DRUG SALES.

24

THE COURT WILL OVERRULE THAT OBJECTION.

25

- WHICH IS A SUBJECT MATTER OF HIS CONVICTION, THAT

I BELIEVE THAT

BASED UPON THE EVIDENCE SUBMITTED BASED UPON THE INFORMATION

DIANE E. SK1LLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 13

Case 4:17-cr-QQ578-JSW Document 77

Filed 01/04/19

Page 5 of 26

5

1

CONTAINED IN THE PRESENTENCE REPORT, PARTICULARLY AS TO WHAT

.2

WAS ON THE PHONE, FOUND ON THE PHONE, THE INFORMATION FROM THE

3

CHP OFFICER, ALTHOUGH THE DEFENDANT ATTACKS THE CREDIBILITY

4

AND RELIABILITY AND COMPETENCE OF THE OFFICER TO OPINE, I

5

THINK THAT GOES TO THE WEIGHT AND NOT THE. ADMISSIBILITY.

6

THIS IS A SENTENCING PROCEEDING, AND I BELIEVE THAT THE

7

COURT

8

EVIDENCE THAT THE BASIS FOR THAT PARTICULAR FOUR-POINT

9

ENHANCEMENT, FOUR-LEVEL ENHANCEMENT IS JUSTIFIED AND WE’LL

10
11

THERE IS

CAN FIND BY A PREPONDERANCE OF THE

MAINTAIN THAT.
THE SECOND ISSUE THAT IS RAISED- BY MR. CON ERL Y IS

12

ANOTHER

13

RELATES TO THE AFTERMATH OF PROPOSITION 64 AND THE FACT THAT

14

THE DEFENDANT HAD ASKED THE SUPERIOR COURT TO RECALL HIS

15

CONVICTION IN ACCORDANCE WITH PROP 64, WHICH WAS GRANTED, AND

16

THE CONVICTION WAS DECLARED LEGALLY INVALID UNDER THAT

17

PROPOSITION.

18

BOTH OF THEM ARE VALID ARGUMENTS.

AND THIS ONE

NOW, WHAT I THOUGHT WOULD BE HELPFUL TO THE PARTIES

19

BECAUSE I THINK THIS IS A CASE OF FIRST IMPRESSION GIVEN THE

2-0

RECENCY OF THIS PROPOSITION 64, TO AVAIL THE PARTIES OF THE

21

COURT’S RESEARCH AND THEN GET THE PARTIES TO GIVE ME THEIR

22

INPUT.

23

IS APROPOS, APPLIES HERE BECAUSE IT PREDATES PROP 64 AND- I

24

DON’T THINK THE DIAZ CASE IS ALSO

25

THAT CASE DEFENDANT RELIES ON, BUT I DON'T THINK IT IS BINDING

I DON’T THINK THAT THE CASE THAT THE GOVERNMENT CITED

THERE IS SOME DICTA IN.

WANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 14

Case 4:17-cr-GQ578-JSW Document 77 Filed 01/04/19

1

ON THE COURT.

Page 6 of 26

6

THOSE CASES ARE NOT HELPFUL.

.2

JUST TO .SUMMARISE THE COURT’S RESEARCH TO DATE AND JUST TO

3

KIND OF GIVE EVERYBODY KIND OF A TEASER FOR NEWS AT A 11 HERE,

4

I HAVE NO CONCLUSION BECAUSE I THINK IT'S A NOVEL POINT AND

5.

HAS- TO BE FLESHED OUT IN LITIGATION.

6

SO I DIDN’T FIND ANY CASE DIRECTLY ON POINT, AND MANY OF

7

THE CASES WHERE PROPOSITION 64 IS INVOLVED INVOLVE CONVERTING

8

A FELONY CONVICTION INTO A MISDEMEANOR OR CONCERN -SENTENCING

9

ENHANCEMENT, THAT IS TO SAY, A CRIME ELEMENT RATHER THAN A

10
11

CRIMINAL HISTORY CATEGORY AS WE HAVE HERE.
NOW, WE KNOW THAT THE- GUIDELINE, THE SENTENCING

12

GUIDELINES, PARTICULARLY THE GUIDELINES MANUAL SAYS QUOTE:

13

"A NUMBER OF JURISDICTIONS HAVE VARIOUS PROCEDURES

14

PURSUANT TO WHICH PREVIOUS -CONVICTIONS MAY BE SET ASIDE -OR THE

15

DEFENDANT’S MAY BE PARDONED FOR REASONS UNRELATED TO INNOCENCE

16

OR ERRORS OF LAW, FOR EXAMPLE, E.G., IN ORDER TO RESTORE CIVIL

17

RIGHTS OR TO- REMOVE THE STIGMA ASSOCIATED- WITH CRIMINAL-

18

CONVICTION.

19

BE COUNTED, HOWEVER, EXPUNGED CONVICTIONS ARE NOT COUNTED,"

20

UNQUOTE.

21
22
23

SENTENCES RESULTING FROM .SUCH CONVICTIONS ARE TO

THAT IS THE GUIDELINES MANUAL SECTION 4A1.2J, COMMENT AT
NOTE 10.
NOW, THE NINTH CIRCUIT HAS NOT GIVEN US ANY GUIDANCE YET

24

EITHER.

25

N-O-R-B-U-R-Y, 492 F.3D 1012 AT 1015 WHERE THE COURT STATED AS

THERE IS A CASE CALLED UNITED STATES VERSUS NORBURY,

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 15

Case 4;17-cr-00578-3SW Document 77 Filed 01/04/19 Page 7 of 26

1
.2

j

FOLLOWS AT PAGE 1015 QUOTE:
"EXPUNGED OR DISMISSED STATE CONVICTIONS NONETHELESS

3

QUALIFIES AS A PRIOR CONVICTION UNDER THE SENTENCING

4

GUIDELINES."

5.

AND THEN THE- FOLLOWING LANGUAGE. I'M EMPHASIZING FOR YOU:

6

"IF THE EXPUNGEMENT OF DISMISSAL QUOTE, WITHIN THE QUOTE

7

'DOES NOT ALTER THE LEGALITY OF THE CONVICTION OR DOES NOT

■8

REPRESENT THAT THE DEFENDANT WAS ACTUALLY INNOCENT OF THE

9

CRIME,

1 -M

UNQUOTE.

10

AND THEN IT.GOES ON TO SAY THAT QUOTE:

11

"THE LEGALITY OF A CONVICTION DOES NOT DEPEND UPON THE

12

MECHANICS OF STATE POST-CONVICTIONS PROCEDURES, BUT RATHER

13

INVOLVES THE CONVICTIONS UNDERLYING LAWFULNESS," UNQUOTE.

14

HERE, THE PRIOR MARIJUANA CONVICTION -WAS DEEMED TO BE

15

QUOTE "LEGALLY INVALID”.

16

CHANGE DOES ALTER THE LEGALITY OF THE UNDERLYING STATE

17

CONVICTION.

18

THIS SUGGESTS TO THE COURT THAT THE

I'VE NOT FOUND A CASE IN THE NINTH CIRCUIT OR ANY FEDERAL

19

COURT, FOR THAT MATTER, THAT ADDRESSES THIS ISSUE HEAD ON, BUT

20

IT SEEMS TO ME THAT THIS DESIGNATION IS MATERIALLY DIFFERENT

21

FROM CLASSIFYING A FELONY AS A MISDEMEANOR AS DO OTHER CASES.

22

GIVEN THE LANGUAGE OF NORBURY, THE DEFINITION OF LEGALLY

23

INVALID SEEMS THE SAME AS QUOTE "ALTERING THE LEGALITY OF THE

24

CONVICTION" UNQUOTE, AND, THEREFORE, UNDER THAT ANALYSIS

25

SHOULD NOT BE USED TO CALCULATE CRIMINAL HISTORY CATEGORIES

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 16

Case 4:17-cr-00578-JSW Document 77 FiSed 01/04/19 Page 8 of 26

1

8

UNDER THE GUIDELINES.

.2

IT IS WORTH POINTING GUT THAT THE CALIFORNIA STATUTE

3

DISTINGUISHES BETWEEN HAVING A PRIOR CONVICTION DESIGNATED AS

4

A MISDEMEANOR INFRACTION OR LEGALLY INVALID. • THE TERMS DO NOT

5.

APPEAR. TO BE INTERCHANGEABLE-.

6

NOW, HEALTH AND SAFETY CODE SECTION 1136.1 SUBDIVISION E

7

STATES THAT QUOTE, "A PERSON WHO HAS COMPLETED HIS OR HER

-8

SENTENCE FOR A CONVICTION MAY FILE AN APPLICATION -BEFORE THE

9

TRIAL COURT AND ENTERED

THAT ENTERED THE JUDGMENT OF

10

CONVICTION IN HIS OR HER CASE TO HAVE THE CONVICTION DISMISSED

11

AND SEALED BECAUSE- THE PRIOR CONVICTION IS NOW LEGALLY INVALID

12

OR REDESIGNATED AS A MISDEMEANOR.

13

SO THIS, GOING BACK TO WHERE I STARTED, THIS PARTICULAR

14

-QUESTION DOES APPEAR TO BE AN ISSUE OF FIRST IMPRESSION.

15

OF COURSE ULTIMATELY IT IS UP TO THE COURT IN THE FINAL

16

ANALYSIS, AT LEAST AT THIS LEVEL OF THE TRIAL COURT.

17

SO

IF THE POINT OF PROPOSITION 64 WAS TO DECRIMINALIZE

18

CERTAIN ACTIVITY, THAT IS TO SAY HAVING TO DO WITH MARIJUANA,

19

AND IT WAS, IT SEEMS INEQUITABLE TO CONTINUE TO USE THAT

20

ACTIVITY AS A FACTOR THAT INCREASES THE TIME A PERSON WILL

21

SERVE IN FEDERAL PERSON.

22

ON THE OTHER HAND, WITH RESPECT TO THE CASES CONTENDING

23

WITH RETROACTIVE CONVERSIONS OF FELONY CONVICTIONS INTO

24

MISDEMEANORS, THE COURTS CONSISTENTLY STATE THAT THE

25

CONVERSION OR RECLASSIFICATION DOES NOT MAKE A DEFENDANT

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APR. 17

Case 4:17-cr-00578-JSW Document 77 Filed 01/04/19

1

INNOCENT OF THE CRIME.

.2

OFFENSE­

'S

Page 9 of 26

g

THE CONVERSION MERELY DOWNGRADES THE

WHAT MATTERS FOR THE PURPOSE OF SENTENCING IS WHETHER THE

4

FELONY CONVICTION OCCURRED; A LATER DOWNGRADE DOESN'T SEEM

5

TO

6

OCCURRED, BUT I BELIEVE THAT MR. CONERLY'S SITUATION IS

7

DISTINGUISHABLE BECAUSE THE MARIJUANA CONVICTION IS NOW

■8

LEGALLY INVALID, NOT JUST A MI-SDEMEANOR.

DOESN'T CHANGE. THE. FACT THAT THE. FELONY CONVICTION:

9

SO I THINK ALL IN, PERHAPS THE WISER COURSE OF ACTION AT

10

THIS POINT, THERE BEING NO. CASES AND THE TERMS BEING LEGALLY

11

INVALID SEEM TO FIT MORE INTO THE CASES. WHERE COURTS- HAVE HELD

12

THAT THE CONVICTIONS

13

IT NEVER OCCURRED AND NOT COUNTED, BUT I WOULD BE INTERESTED

14

IN HEARING WHETHER THE GOVERNMENT HAS ANYTHING TO -SAY ABOUT

15

ANYTHING FURTHER.

16

MS. MARTIN:

THE CONVICTION SHOULD BE TREATED AS IF

THE CLOSEST I HAD COME WAS TO THE CASE

17

THAT I HAD CITED- AND I DC RECOGNIZE IT IS DIFFERENTLY,

18

PARTICULARLY NOW THAT I'VE HAD MORE TIME TO LOOK AT THE

19

DOCUMENT THE DEFENSE HAS PROVIDED.

’20

AND YOU'RE RIGHT, I MEAN I HAVEN'T SEEN ANYTHING THAT -MADE

21

A CASE — A PRIOR CRIME INVALID.

22

DIFFERENT.

23

FORWARD HERE IS TO- NOT COUNT IT.

24
25

SO I DO THINK IT MIGHT BE

I DON'T NECESSARILY DISAGREE THAT THE WAY TO MOVE

THE COURT:

IS THERE ANYTHING FURTHER YOU WANT TO

SAY, MR. DRESSLER?

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. ARP. 18

I

Case 4:17-cr-00578-JSW Document 77 Filed 01/04/19 Page 10 of 26

MR. DRESSLER:

1

io

SINCE THE U.S. ATTORNEY HAS INDICATED

.2

THAT — WHAT SHE INDICATED-, I WOULD HEARTILY JOIN IN HER

3

STATEMENT.

4

THE COURT:

I THINK THAT I’M GOING TO

I THINK THE

5

BETTER COURSE- HERE- UNTIL- I GET FURTHER. GUIDANCE., EITHER FROM.

6

THE NINTH CIRCUIT OR ANOTHER

7

CIRCUIT, MAYBE EVEN THE CALIFORNIA SUPREME COURT, IT

8

DOESN’T

9

CRIMINAL MATTER, ANY CRIMINAL STATUTE SHOULD, IF THERE IS A

10

DOUBT, IT SHOULD BE RESOLVED IN FAVOR OF LENITY OR LENIENCY

11

AND, THEREFORE, I 'M NOT GOING TO COUNT THAT PRIOR CONVICTION.

IT WOULDN’T BE ANY OTHER

GIVEN THAT I THINK ANY CRIMINAL SENTENCE

OR ANY

12

AND THE RESULT OF THAT FROM THE COURT’S CALCULATION IS

13

THAT MR. CONERLY IS A CRIMINAL HISTORY CATEGORY III, NOT A

14

■CRIMINAL HISTORY CATEGORY IV AND, THEREFORE, UNDER THE

15

APPROPRIATE GUIDELINE CALCULATION HIS EXPOSURE UNDER THE

16

NONBINDING GUIDELINES WOULD BE 87 TO 108 MONTHS AS OPPOSED TO

17

100- TO- 125 MONTHS-.

18

SO THAT'S WHAT THE COURT HOLDS IN THIS CASE.

AND IF THE

19

GOVERNMENT WANTS TO TAKE ME UP AND MAKE SOME NEW LAW, THEY

20

HAVE -EVERY RIGHT TO DO SO.

21

BUT, AGAIN, I THINK THAT’S THE RIGHT WAY TO GO ESPECIALLY

22

IN LIGHT OF THE CANDID STATEMENT, WHICH I APPRECIATE FROM

23

GOVERNMENT COUNSEL.

24
25

ALL RIGHT.

SO THAT SAID, WE ARE NOW DEALING WITH A

DIFFERENT STARTING POINT IN TERMS OF THE GUIDELINES UNDER

DIANE E. SK1LLMAN, OFFICIAL COURT REPORTER, USDC
CERT. ARP. 19

Case 4:17-cr-0G578-JSW Document 7 / Filed 01/04/19 Page 11 of 26

n

AND

1

CARTER — CARTY,

.2

I’VE READ

3

ANYTHING YOU WANT TO SAY AT ALL, AND IN PARTICULAR, NOW THAT

4

THE GUIDELINE CALCULATION IS DIFFERENT?

5

U.S. VERSUS CARTY IN THE NINTH CIRCUIT.

MS. MARTIN, I'VE READ YOUR MEMORANDUM.

MS. MARTIN:

THE. GOVERNMENT' ST J LI, ASKS. FOR A HIGH END:

6

GUIDELINE.

7

POINT FOR THE REASONS STATED THEREIN.

■8

HIS BACKGROUND IS PRETTY HEINOUS.

9

IE THERE

SO 108 MONTHS WOULD BE OUR RECOMMSNDATION AT THIS

HE HAS -MULTIPLE DRUG

SALES CONVICTIONS, THE CIRCUMSTANCES SURROUNDING THIS

10

PARTICULAR ARREST WITH THE FIREARM INVOLVED ACTUAL THREATS OF

11

VIOLENCE TO ANOTHER PERSON.

12

THIS ARRESTED AND WAS FACING FEDERAL CHARGES BEFORE.

13

AND- HE WAS ONLY RECENTLY BEFORE

SO IT DOESN'T SEEM THAT A WAKE-UP CALL IS GOING TO AT THIS

14

POINT REHABILITATE THE DEFENDANT.

15

HOPES THAT IN HIS FUTURE HE IS REHABILITATED, AND WE WOULD

16

LOVE FOR HIM TO CHOOSE A DIFFERENT PATH, BUT I THINK WE CAN’T

17

TAKE THAT RISK AND WE CAN’T BELIEVE THAT HE WILL AFTER THIS

18

PATTERN OF CRIMINAL ACTIVITY.

19

SO I THINK TO BE

CERTAINLY THE GOVERNMENT

- TO KEEP THE PUBLIC SAFE, A PRISON

20

SENTENCE OF AS LONG AS POSSIBLE IS REQUIRED HERE.

21

ARE SEEKING A HIGH-END SENTENCE.

22
23
24
25

THE COURT:

AND SO WE

EXPLICIT IN WHAT YOU ARE SAYING OR

IMPLICIT, IS THAT YOU ARE NOT ASKING FOR AN UPWARD' VARIANCE.
MS. MARTIN:

THE GOVERNMENT WOULD NEED SPECIAL

PERMISSION FROM SUPERVISORS TO SEEK AN UPWARD VARIANCE.

SO WE

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APR. 20

Case 4:17-cr-00578-JSW Document 77 Filed 01/04/19 Page 12 of 26

1

12

ARE SIMPLY ASKING FOR A HIGH-END SENTENCE.
THE COURT:

2

THANK YOU VERY MUCH-

3

MR. DRESSLER, YOU DID AN EXCELLENT JOB AND THE COURT

4

APPRECIATES BRINGING THAT ISSUE TO THE COURT’S ATTENTION

5

BECAUSE-, EVEN THE- PROBATION OFFICER IS- EXCELLENT AT KEEPING UP

6

ON THE LAW DID NOT PUT THAT IN THERE.

7

I WAS NOT

I WAS GENERALLY AWARE OF PROPOSITION 64, BUT

-8

NOT IN THE CONTEXT OF HOW IT IMPACT'S THE -GUIDELINES.

9

COURT APPRECIATES YOU BRINGING THAT UP.

SO THE

IT CERTAINLY MAKES

10

PUTS A DIFFERENT LIGHT ON THE CASE IN TERMS OF THE DEFENDANT'S

11

EXPOSURE AND- ALSO- AVOIDED- AN: ISSUE ON APPEAL THAT COULD HAVE-

12

COME UP FOR THE FIRST TIME WITHOUT THE DISTRICT COURT HAVING

13

HAD AN OPPORTUNITY TO RESEARCH THE MATTER.

14

-APPRECIATES YOU BRINGING IT TO THE •COURT'S ATTENTION.

15

IS THERE ANYTHING FURTHER YOU WISH TO SAY AT THIS POINT?

16
17

SO THE COURT

MR. DRESSLER:
I WOULD- SAY THAT

YES, YOUR HONOR.

THANK YOU FOR THAT.

AND- I WILL CHARACTERIZE IT BRIEFLY IN­

IS

TERMS OF WHAT I'VE ARGUED, AND THAT IS REALLY FOR THE FIRST

19

TIME IN HIS LIFE, FOR THE TWO YEARS OR A LITTLE LONGER PRIOR

20

TO THIS OFFENSE BEFORE HE... BEFORE HE GOT OFF THE TRACK

21

AGAIN, HE HAD DONE SOMETHING WHICH HE HAD NEVER DONE BEFORE IN

22

HIS WHOLE LIFE WHICH IS TO HAVE A JOB, WORK AT IT.

23

REALLY

24

HAD STARTED IN APRIL OF 2017, STARTED APPLYING FOR THE TRUCK

25

DRIVING SCHOOL, AND HE SAW THAT AS A REAL OPPORTUNITY FOR HIM

HE

THE — ONE OF THE EXHIBITS I SUBMITTED SHOW THAT HE

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. ARP. 21

Case 4:17-cr-00578-JSW Document 77 Filed 01/04/19

Page 13 of 26

13

1

TO MAKE SOME REAL MONEY FOR THE FIRST TIME IN HIS LIFE.

2

AS WITH ALL PEOPLE THAT HAVE DRUG PROBLEMS, IT’S NOT A STEADY

3

CURE THAT JUST RISES FROM THE BOTTOM ALL THE WAY UP TO TOTAL

4

REHABILITATION.

5.

AND

SO, HE. DID, WITH THE. HELP, AND I — AS I SUGGESTED WITH

6

THE HELP OF SERVICES .THAT ARE AVAILABLE IN A FEDERAL COURT AS

7

OPPOSED TO A STATE COURT THAT HAVE MORE PEOPLE AND LESS

'8

RESOURCES THAT — AND WITH THE HELP OF PRETRIAL SERVICES

9

BEFORE HIS PREVIOUS CASE WAS DISMISSED, HE GOT SOME REAL HELP.

10

AND HE TOOK IT TO HEART AND HE GOT A JOB, AND HE DID THE BEST

11

HE COULD.

12

WAYS.

AND THEN IT HAPPENED THAT' HE- FELL BACK INTO HIS OLD

13

I DON’T KNOW WHETHER IT WAS BECAUSE HE HAD A DIFFICULT

14

TIME AND IT REQUIRED A LOT OF EFFORT AND MULTIPLE APPLICATIONS

15

FOR DIFFERENT. REASONS TO GET INTO THAT TRUCK DRIVING SCHOOL,

16

HE FELL OFF THE WAGON,' SO TO SPEAK.

17

THE COCRT:

DON’T THE FACTS CLEARLY SHOW THAT' EVEN-

18

WHILE HE WAS WORKING, DURING THE PERIOD THAT HE WAS WORKING HE

19

POSSESSED A FIREARM?

2-0
21
22

MR. DRESSLER:

YES, BUT I THINK THAT WAS RELATIVELY

RECENT, FRANKLY, RELATIVE TO THE INCIDENT IN THIS CASE.
AND EVEN DESPITE THE FACT THAT HE WAS ARRESTED, DESPITE

23

THE FACT THAT HE WAS CHARGE WITH FELONIES, HE DIDN’T JUST SIT

24

AROUND AND FEEL SORRY FOR HIMSELF.

25

CALIFORNIA, SPENT A COUPLE OF DAYS THERE, SIGNED A LOAN

HE WENT DOWN TO FONTANA,

DIANE E. SKILL MAN, OFFICIAL COURT REPORTER, USDC
CERT. APR. 22

Case 4:17-cr-00578-JSW Document 77 Filed 01/04/19 Page 14 of 26

14

1

AGREEMENT AND WAS ON HIS WAY, ALBEIT AFTER THE FACT

2

NOT LIKE HE THOUGHT OF THAT RIGHT AFTER HIS ARREST, MAYBE 1’LL

3

DO THIS, HE HAD BEEN TRYING TO DO THAT FOR A NUMBER OF MONTHS.

4

AND I DIDN’T SUBMIT

IT ' S

I HAD ABOUT 200 PAGES OF PAPERWORK

5

IN TERMS OF THOSE- APPLICATIONS, I SUBMITTED ENOUGH TO GIVE- THE-

6

COURT AN IDEA OF WHAT ALL THAT WHAT WAS ABOUT.

7

SO ULTIMATELY THE QUESTION FOR THE COURT IS WHAT IS A

-'8

-SUFFICIENT SENTENCE TO DETER HIM AND TO HELP HIM CONTINUE

9

ALONG THE RIGHT PATH.

10

AS I SAID IN MY MOVING PAPERS, I KNOW THIS COURT AND I

11

KNOW THE COURT TAKES- THESE KINDS OF CASES VERY SERIOUSLY, AND

12

A SUBSTANTIAL SENTENCE IS IN ORDER, BUT I WOULD SUGGEST THAT

13

BASED ON THE 3553(A) FACTORS THAT I TALKED ABOUT, THAT

14

SOMETHING LESS THAN

. 15
16

SOMETHING LOWER THAN THE ADVISORY

GUIDELINE RANGE IS APPROPRIATE.
AND HE'S GETTING OLDER.

AS THE COURT KNOWS, THE OLDER

17

PEOPLE GET, FRANKLY, THE LESS LIKELY THEY ARE TO RECIDIVATE.

18

I THINK THAT HE'S GETTING

19

SIX-YEAR SENTENCE, WHICH I CONSIDER TO BE SUBSTANTIAL, THAT’S

2-0

A LONG SENTENCE FOR SOMEONE HIS AGE.

21

IMPORTANT FOR HIM TO BE RELEASED FROM A PRISON SENTENCE WHILE

22

HE’S STILL YOUNG ENOUGH TO NOT ONLY TAKE ADVANTAGE OF

23

SUPERVISED RELEASE AND REHABILITATION THAT COMES ALONG WITH

24

THAT, BUT ALSO NOT SO OLD NO ONE WILL WANT TO HIRE HIM.

25

THE COURT:

EVEN IF YOU GIVE HIM A FIVE- OR

ALL RIGHT.

AND I THINK IT WOULD BE

THANK YOU VERY MUCH,

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 23

Case 4:17-cr-00578-JSW Document 77

1
.2

Filed 01/04/19 Page 15 of 26

15

MR. DRESSLER.
MR. CONERLY, THIS IS YOUR OPPORTUNITY TO ADDRESS THE .COURT

3

ON SENTENCING AND ANY MATTER THAT YOU THINK THE COURT SHOULD

4

TAKE INTO ACCOUNT IN CONNECTION WITH SENTENCING YOU.

5

WHAT WOULD YOU LIKE. TO SAY TO THE. COURT?
THE DEFENDANT:

6
7

AN APOLOGY.

8

TO THE COMMUNITY.

9

FIRST I WOULD LIKE TO START OFF WITH .

I AM SORRY THAT I AM CONSTANTLY BEING A PROBLEM

YOU KNOW, MY INTENTIONS WERE NOT TO HURT ANYONE.

10

HURT ANYONE.

11

DOCUMENTED NO NOTHING.

12

MAKES ME SEEM, I NEVER HURT ANYONE.

13

I NEVER

NEVER SENT NOBODY TO THE HOSPITAL, JUST NEVER
NO- MATTER HOW BAD- THE PROSECUTION

I DON'T GO OUT THERE INTENTIONALLY VICTIMIZE ANYONE.

I'M

14

NOT TRYING TO MINIMIZE WHAT I DID -OR POTENTIAL -RISK THAT -COULD

15

HAVE HAPPENED, I’M NOT TRYING TO MINIMIZE IT, BUT I HAVEN’T.

16

LAST TIME I DID GET A BREAK THEY FOUND EVIDENCE THAT THE

- 17
18
19

BERKELEY POLICE HAD- VIOLATED MY CONSTITUTIONAL RIGHTS, AND- I
WAS RELEASED FROM CUSTODY.
LIKE MY ATTORNEY SAID, I NEVER HAD A JOB BEFORE.

I TOOK

20

IT INTO CONSIDERATION BECAUSE, YOU KNOW, -MY LIFE WASN’T -GOING

21

NOWHERE.

22

IT WASN’T HELPING ME, SO I TOOK THE INITIATIVE MYSELF FROM

23

DEEP DOWN INSIDE AND GAVE AN EFFORT FOR IT, AND I KEPT

24

FIGHTING AND FIGHTING.

25

I AM GETTING OLDER.

I'VE DONE SOME TIME BEFORE, AND

AND THEN AS TIME WAS GOING ON AND COMMUNICATING WITH

WANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 24

Case 4:17-cr-00578-JSW Document 77

Filed 01/04/19

Page 16 of 26

i&

1

DIFFERENT POSITIVE PEOPLE IN SOCIETY THAT WAS GIVING ME THE

.2

PROPER GUIDANCE, THEY WAS TURNING ME ON TO LIKE NEW VENUES IN

3

MY LIFE.

4

ON TO A COLLEGE PROGRAM.

5

AMRASSADOR WHERE. I lM DOING DRIVES r HELPING PEOPLE, FIRE.

6

VICTIMS IN SANTA ROSA, ALL THAT TYPE OF STUFF.

7

FIRST I WAS DOING WAREHOUSING.

THEN THEY TURNED ME

THEN THEY TURNED ME ON TO A DONATION

AND THEN SOMEBODY JUST GAVE ME A HIT ON A CAREER THAT I

-8

KNEW I COULD -SURVIVE OFF OF.

9

ENGLAND AND IT SHOWED I COULD MAKE A SUBSTANTIAL AMOUNT OF

HE -SHOWED ME A MEMO FROM C.-R.

10

MONEY WHERE I COULD PAY RENT AND LIVE CLEAN AND FREE AND HAVE

11

A LITTLE BIT LOWER THAN- MIDDLE CLASS LIFESTYLE WHERE I CAN

12

AFFORD TO STAY SOMEWHERE.

13

IT WAS HARD.

SO I TOOK THAT INTO CONSIDERATION.

IT TOOK ME LIKE SIX MONTHS TO FIND FUNDING,

14

-AND THEN I HADN' T HAD NO CONVICTIONS IN OVER SEVEN YEARS, SO

15

THE COMPANY DOWN THERE IN SOUTHERN CALIFORNIA HAD ACCEPTED ME.

16

SO BY THE TIME

I WENT TWICE.

THE FIRST TIME I WENT I

17

HAD MY SOCIAL SECURITY CARD MYSTERIOUSLY CAME UP MISSING SO

18

THEY SENT ME BACK UP HERE BECAUSE THEY COULDN rT HIRE ME

19

WITHOUT MY SOCIAL SECURITY CARD.

2-0

SO I WAS SENT BACK DOWN THERE LIKE A COUPLE OF MONTHS.

21

KIND OF LOST FOCUS.

22

YOU KNOW, I STARTED DRINKING.

23

YOU KNOW, IT WAS A LOT OF VIOLENCE GOING ON IN MY

24

NEIGHBORHOOD, BUT THE GUN HAD NO BULLETS OR ANYTHING.

25

I

I WAS HAVING PROBLEMS WITH MY FEMALE
AND IT JUST BUST ON ME.

I'M NOT TRYING TO MINIMIZE IT.

THEN,

MY INTENTION WASN'T TO

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 25

Case 4;17-cr-Q0578-JSW Document 77 Filed 01/04/19

1

HURT ANYONE.

.2

YOU KNOW, I APOLOGIZE.

3

AND THEN I JUST FELL.

Page 17 of 26

17

I FELL ON HARD TIMES.

BUT THE TIMES I HAVE BEEN ARRESTED, I HAVE THE STUFF TO

4

REHABILITATE MYSELF TOWARDS THE COMMUNITY.

5

FIRE. CAMP OJ4 ONE. OF THEM CONVICTIONS-.

6

STRIKE TEAMS.

7

PEOPLE WOULDN'T PUT THEMSELVES OUT ON THE LINE TO TRY TO HELP

'8

-SAVE THE COMMUNITY.

•9

WHAT ELSE?

10

LIKE I WENT TO

WE. DEAL. WITH SUICIDES-,

I MEAN STUFF LIKE FLOODS, STUFF THAT A LOT OF

I WROTE YOU A LETTER.

DID YOU HAPPEN TO READ

■ MY LETTER?

11

THE COURT:

12

THE DEFENDANT:

YES-, I DID.
AND I REALLY NEVER BEEN OUT OF JAIL

13

THAT LONG.

14

OF YEARS AND, YOU KNOW, I JUST -CAME AT A LOW POINT IN MY LIFE

15

AND MY ADDICTION JUST TOOK OVER.

16

AM SORRY.

17

I NEVER HAD AN OPPORTUNITY TO BE OUT OVER A COUPLE

THE COURT:

18

ALL- RIGHT.

I’M JUST

I APOLOGIZE.

I

THANK YOU VERY MUCH.

SO THE COURT HAS THIS MATTER FOR SENTENCING.

IT’S ONE OF

19

THE THINGS

2-0

WAS THAT YOU WERE IN A SITUATION WHERE YOU’RE NOT ALL THAT

21

LONG AGO YOU HAD BEEN CHARGED WITH A SIMILAR VIOLATION AND THE

22

CASE

23

THAT GAVE RISE TO THE EVIDENCE AGAINST YOU WAS ILLEGALLY

24

OBTAINED, THEREFORE, IT WAS EXCLUDED, AND THERE BEING NO

25

FURTHER EVIDENCE BEYOND THAT, THE CHARGES WERE DISMISSED, I

ONE OF THE THINGS THAT STRUCK ME ABOUT THIS CASE

YOUR COUNSEL SUCCESSFULLY ARGUED THAT THE SEARCH

DIANE E. SK1LLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 26

Case 4:17-cr-00578-JSW Document 77

Filed 01/04/19 Page 18 of 26

18:

1

WOULD HAVE THOUGHT THAT MOST PEOPLE WOULD SAY, YOU KNOW WHAT?

.2

THAT'S MAYBE A GIFT FROM WHEREVER, WHATEVER I BELIEVE IN, AND

3

MAYBE I GOT AWAY WITH ONE BECAUSE WE ALL BOTH KNOW THAT

4

MATTERS

5-

EVI BENCE- DOE-S-N1T

6

FIND THAT YOU WERE INNOCENT OR NOT GUILTY, IT SIMPLY FINDS

7

THAT THE EVIDENCE WAS IMPROPERLY OBTAINED.

-•8
9

CASES THAT ARE DISMISSED BECAUSE OF SUPPRESSION OF
BECAUSE. THERE IS A SUPPRESSION DOESN' T

AND IN ORDER TO DETER THE POLICE FROM CONDUCTING THAT
UNCONSTITUTIONAL ACTIVITY, YOU KNOW, THE CONSTITUTION EXCLUDES

10

THAT EVIDENCE, BUT IT HAS NOTHING TO DO WITH GUILT OR

11

INNOCENCE.

.12

BUT IF, IN FACT, YOU DID HAVE

THE COURT WILL NOT TAKE

13

THAT INTO ACCOUNT BECAUSE THE EVIDENCE UPON WHICH IT RELIED

14

WAS ILLEGALLY OBTAINED ACCORDING TO A DISTRICT COURT -JUDGE,

15

BUT I WOULD HAVE THOUGHT THAT THAT WHOLE SERIES OF EVENTS

16

WOULD HAVE SAID, HEY, I HAD MY CHANCE.

17

YOU KNOW, BECAUSE THE POLICE ACTED- INAPPROPRIATELY, AND- WOULD

18

HAVE JUST MOVED ON WITH YOUR LIFE, BUT YOU DIDN'T DO THAT.

19

AND THIS IS NOT

I GOT OFF WITH THIS,

THIS IS NOT YOUR GARDEN VARIETY CASE

20

THAT WE SEE WHEREBY THE GOVERNMENT -CHARGES SOMEBODY WITH A

21

FIREARMS VIOLATION WHERE THEY SIMPLY HAD THE FIREARM, USUALLY

22

THERE’S NOTHING ELSE GOING ON EXCEPT THEY WERE TRYING TO

23

PROTECT THEMSELVES.

24

NEED TO PROTECT THEMSELVES.

25

OFTEN THEY WERE SHOT AND THEY THINK THEY

NONE OF THAT IS JUSTIFIED, BUT AT LEAST IT’S A DIFFERENT

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 27

Case 4:17-cr-00578-JSW Document 77 Filed 01/04/19 Page 19 of 26

ig

1

KIND OF SITUATION AND IT'S NOT AS AGGRAVATING.

2

UNDISPUTED THAT, YOU KNOW, YOU FLED FROM THE POLICE, WHICH

3

YOU’VE DONE BEFORE, YOU ASSAULTED A YOUNG LADY WITH A BASEBALL

4

BAT BY THROWING IT AT HER, YOU HAD A FIREARM WITH AN EXTENDED

5

MAGAZINE, WHICH IS- EXTREMELY DANGEROUS-, YOU ATTEMPTED: TO

6

ASSAULT THE ARRESTING OFFICERS, AND YOU KICKED ONE OFFICER AND

7

SPAT ON THE OFFICER, ACCORDING TO THE EVIDENCE CONTAINED IN

-8

THE PRE-SENTENCE REPORT, WHICH I-S UNDISPUTED, YOU THREATENED TO

,9

KILL THE ARRESTING OFFICER.

10
11
12

NO, YOU HAD THE OPPORTUNITY.

BUT HERE, IT'S

DON’T RAISE YOUR HAND.

YOU

HAD YOUR OPPORTUNITY.
AND ALSO IT'S PRETTY CLEAR TO THE COURT' THAT YOU WERE

13

DEALING DRUGS, ALTHOUGH AT A STREET LEVEL, AND THIS FIREARM

14

WAS TO PROTECT YOUR BUSINESS.

15

RELATING TO THIS CONVICTION ARE MUCH MORE SERIOUS THAN THE

16

USUAL ONE, AND IN SOME WAYS, YOU KNOW, YOU ARE FORTUNATE

17

BECAUSE YOU WERE ABLE TO AVOID- THIS- PREVIOUS- CHARGE IN- FRONT

18

OF ONE OF MY COLLEAGUES, JUDGE TIGAR, YOU

19

DID NOT CHARGE YOU WITH A SEPARATE SUBSTANTIVE OFFENSE FOR

2-0

USING A GUN IN THE -COURSE OF A DRUG SALE, WHICH -WOULD -HAVE

21

COULD HAVE RESULTED IN A MANDATORY MINIMUM CONSECUTIVE

22

SENTENCE OF AT LEAST FIVE YEARS.

23

SO THE -ELEMENTS

THE FACTS

THE GOVERNMENT

YOUR LAWYER SUCCESSFULLY ARGUED ABOUT THE IMPACT OF THE

24

PETITION TO REDUCE

25

CONVICTION TO BE LEGALLY INVALID, SO YOU ARE STANDING HERE IN

TO FIND YOUR PREVIOUS MARIJUANA

DIANE E. SKiLLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 28

Case 4:17-cr-00578-JSW Document 77 Filed 01/04/19 Page 20 of 26

20

1

THE FACE OF SOME REALLY SERIOUS CHARGES AND REALLY SERIOUS

2

FACTS IN A

3

- FOR SOMEBODY IN THAT POSITION, PRETTY FAVORABLY.

I LOOK AT THE FACT THAT BASED UPON PREVIOUS SENTENCES IN

4

VIOLATIONS OF PAROLE AND OTHER SENTENCES YOU’VE HAD, YOU WERE

5

LOOKING. AT TEN-YEAR: SENTENCES,,. TWO-YEAR SENTENCE. IN STATE.

6

COURT, AND EVEN THE LOOMING POTENTIAL TEN-YEAR SENTENCE IN

7

STATE PRISON DID NOT DETER YOU FROM GOING BACK TO YOUR

8

CRIMINAL WAYS AND POSSESSING THIS FIREARM.

9

YOU HAVE FOUR PRIOR ADULT FELONY CONVICTIONS, ONE OF THEM,

10

THE DRUG CHARGE IS NOT VALID, BUT YOU STILL HAVE THE OTHER

11

ONES, AND YOU HAVE THIS- HABIT' OF FLEEING FROM POLICE AND GOING

12

BACK REGRESSING TO POSSESSING FIREARMS.

13

SO THIS IS A PRETTY SERIOUS CASE, AND WHAT YOU PRESENT TO

14

ME, MR. CONERLY, IS A PERSON WHO, BECAUSE OF ALL OF THE

15

VIOLATIONS OF PROBATION AND PAROLE YOUR BEHAVIOR IN THE

16

CONTEXT OF THESE CONVICTIONS AND THE ARREST IN THIS CASE, AS A

17

PERSON WHO- REALLY DOESN’T RESPECT THE LAW.

18

AND CONTRARY TO THE CALM DEMEANOR THAT YOU PRESENT HERE IS

19

AS DEMONSTRATED HIMSELF TO BE VIOLENT AND NOT RESPECTING

2-0

AUTHORITY IN THE FORM OF THE POLICE OR EVEN THE COURT, AND THE

21

SENTENCE, AS THE GOVERNMENT I THINK PROPERLY ARGUES AND IS

22

RECOMMENDED BY THE PROBATION OFFICER IS NECESSARY TO INSTILL

23

RESPECT FOR THE LAW AND- ALSO TO- PROTECT THE PUBLIC FROM YOU.

24

BECAUSE IT STRIKES ME, GIVEN YOUR REACTION, YOU KNOW, IN

25

THE POLICE CAR AND YOU’RE ASSAULTING THIS YOUNG WOMAN BY

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 29

Case 4:17-cr-00578-JSW Document 7 ( Filed 01/04/19 Page 21 of 26

21

1

THROWING A BASEBALL BAT AT HER, THAT YOU ARE A VIOLENT

2

INDIVIDUAL AND SOCIETY NEEDS TO PROTECT — BE PROTECTED FROM

3

YOU, AND YOU NEED TO BE DETERRED FROM COMMITTING THIS KIND

4

OF

5

THIS VIOLENCE AND REGRESSING TO FIREARMS IN THE FUTURE.
NOW, AGAIN, THE- GOVERNMENT' HAS- NOT REQUESTED AN UPWARD

6

VARIANCE.

7

UP TO THE STATUTORY MAXIMUM OF TEN YEARS WOULD BE APPROPRIATE,

8

BUT I THINK IT WOULD BE INTELLECTUALLY DISHONEST FOR THE COURT

9

OR NOT COMPLETELY HONEST FOR THE COURT HAVING SUSTAINED YOUR

AND I THINK THIS IS A CLOSE CASE WHERE A VARIANCE

10

OBJECTION TO THE GUIDELINE CALCULATION TO SAY, WELL, IN ANY

11

EVENT I 'M GOING- TO GIVE- THE SAME SENTENCE THAT I MAY HAVE-

12

GIVEN HAD THAT PRIOR CONVICTION BEEN COUNTED AGAINST YOU.

13

DON'T THINK THAT IS APPROPRIATE.

14

THAT YOU'RE -GETTING.

I

SO THERE IS ANOTHER BREAK

15

SO AS YOU LEAVE THE COURTROOM THINKING, YOU KNOW, YOU

16

REALLY GOT A TOUGH BREAK HERE, KEEP IN MIND THAT THESE THINGS

17

THAT I TALKED- ABOUT, IT COULD HAVE BEEN MUCH, MUCH WORST FOR

18

YOU.

19

WAY YOU WRITE AND THE WAY YOU SPEAK, TO BE A VERY ARTICULATE

20

YOUNG MAN, AN INTELLIGENT YOUNG MAN, BUT IT'S THE IMPULSE

21

CONTROL THAT CONCERNS THE COURT.

22

I JUST HOPE, BECAUSE YOU SEEM LIKE, YOU KNOW, GIVEN THE

AND I’M HOPING THAT YOUR TIME

DURING YOUR TIME IN

23

PRISON YOU WILL CONTINUE TO LEARN A TRADE, THAT YOU WILL LEARN

24

TO

25

WILL COME OUT AS A LAW ABIDING CITIZEN AND NOT A THREAT TO

- YOU WILL TAKE ANGER MANAGEMENT TRAINING, AND THAT YOU

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 30

Case 4:17-cr-00578-JSW Document 77

1

SOCIETY.

Filed 01/04/19

Page 22 of 26

22

SOMEBODY IS GOING TO GET HURT AND IT MAY BE YOU.

2

THE SENTENCE OF THE COURT IS AS FOLLOWS;:

3

PURSUANT TO THE SENTENCING REFORM ACT OF 1984, IT IS THE

4

JUDGMENT OF THE COURT THAT CAN DAVID CONERLY IS HEREBY

5

COMMITTED TO THE. CUSTODY OF THE. BUREAU: OF PRISONS TO BE IN

6

PRISON FOR A TERM OF 108 MONTHS.

7

THE COURT RECOMMENDS THAT THE DEFENDANT PARTICIPATE IN THE

8

BUREAU OF PRISON'S RESIDENTIAL DRUG ABUSE TREATMENT ■ PROGRAM OR

9

RDAP.

10
11
12

UPON RELEASE FROM IMPRISONMENT, THE DEFENDANT SHALL BE
PLACED ON SUPERVISED- RELEASE FOR A- TERM: OF THREE YEARS-.
WITHIN 72 HOURS OF RELEASE FROM THE CUSTODY OF THE BUREAU

13

OF PRISONS, THE DEFENDANT SHALL REPORT IN PERSON TO THE

14

PROBATION OFFICE IN THE DISTRICT TO WHICH HE IS RELEASED.

15

WHILE ON SUPERVISED RELEASE, THE DEFENDANT SHALL NOT

16

COMMIT ANOTHER FEDERAL, STATE, OR LOCAL CRIME, SHALL COMPLY

17

WITH THE STANDARD CONDITIONS THAT HAVE BEEN ADOPTED- BY THIS

18

COURT, SHALL REFRAIN FROM ANY UNLAWFUL USE OF A CONTROLLED

19

SUBSTANCE, AND SUBMIT TO A DRUG TEST WITHIN 15 DAYS OF RELEASE

2-0

ON SUPERVISED -RELEASE AND TWO PERIODIC -DRUG TESTS THEREAFTER,

21

AND SHALL COMPLY WITH THE FOLLOWING CONDITIONS.

22

1.

WHEN NOT EMPLOYED AT LEAST PART TIME AND/OR ENROLLED

23

IN AN EDUCATIONAL OR VOCATIONAL PROGRAM, YOU MUST PERFORM UP

24

TO 20 HOURS OF COMMUNITY SERVICE PER WEEK AS DIRECTED BY THE

25

PROBATION OFFICER.

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APR. 31

Case 4:17-cr-00578-JSW Document 77

Filed 01/04/19

Page 23 of 26

23

I

1

2.

YOU MUST PAY ANY SPECIAL ASSESSMENT THAT IS IMPOSED BY

2

THIS JUDGMENT AND THAT REMAINS UNPAID AT THE COMMENCEMENT OF

3

THE- TERM OF SUPERVISED RELEASE.

4

3.

YOU MUST SUBMIT YOUR PERSON, RESIDENCE, OFFICE,

5.

VEHICLE., ELECTRONIC- DEVICES- AND: THEIR DATA, INCLUDING- CELL

6

PHONES, COMPUTERS AND ELECTRONIC STORAGE MEDIA OR ANY PROPERTY

7

UNDER YOUR CONTROL TO A SEARCH.

-8

CONDUCTED BY A UNITED -STATES PROBATION OFFICER OR ANY FEDERAL,

9

STATE, OR LOCAL LAW ENFORCEMENT OFFICER AT ANY TIME WITH OR

SUCH A SEARCH MUST BE

10

WITHOUT SUSPICION.

11

GROUNDS- FOR REVOCATION.

12

PREMISES MAY BE SUBJECT TO SEARCHES.

13

4.

FAILURE TO SUBMIT TO .SUCH A SEARCH MAY BE
YOU MUST WARN ANY RESIDENTS- THAT THE

YOU MUST PARTICIPATE IN A PROGRAM OF DRUG TESTING.

IF

14

YOU SUBMIT A URINALYSIS SPECIMEN WHICH TESTS POSITIVE FOR

15

ILLEGAL SUBSTANCES OR YOU ADMIT TO THE USE OF ILLEGAL

16

SUBSTANCES, YOU MUST PARTICIPANT IN A PROGRAM OF TESTING AND

17

TREATMENT FOR DRUG AND/OR ALCOHOL ABUSE UNTIL SUCH TIME AS YOU

18

ARE RELEASED FROM SUCH TREATMENT.

19

OF THE COST OF THIS TREATMENT IN AN AMOUNT NOT TO EXCEED THE

20

COST OF TREATMENT.

21

DETERMINED BY THE PROBATION OFFICER.

22
23
24
25

5.

YOU ARE TO PAY PART OR ALL

THE ACTUAL CO-PAYMENT SCHEDULE MUST BE

YOU MUST COOPERATE IN THE COLLECTION OF DNA AS

DIRECTED BY THE PROBATION OFFICER.
IT IS FURTHER ORDERED THAT THE DEFENDANT SHALL RAY TO THE
UNITED STATES A SPECIAL ASSESSMENT OF $100.

PAYMENT SHALL BE

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 32

Case 4:17-cr-Q0578-JSW Document (1 Fifed Q1/04/19 Page 24 of 26

1

MADE TO THE CLERK, U.S. DISTRICT COURT, 450 GOLDEN GATE

.2

AVENUE,

3

P.O. BOX .3:6060 GAN FRANCISCO, CALIFORNIA, 941 02 .

DURING IMPRISONMENT, PAYMENT OF CRIMINAL MONITARY

4

PENALTIES ARE DUE AT THE RATE OF NOT LESS THAN $25 PER

5

QUARTER, AMD PAYMENTS SHALL. BE THROUGH THE BUREAU OF PRISONS.

6

INMATE FINANCIAL RESPONSIBILITY PROGRAM.

7

THE COURT FINDS THE DEFENDANT DOES NOT HAVE THE ABILITY TO

-3

PAY A FINE AND, THEREFORE, ORDERS THE IMPOSITION OF ANY FINE

9

TO BE WAIVED.

10

\

24

FORFEITURE.

THE DEFENDANT’S INTEREST IN THE FOLLOW

11

PROPERTY SHALL BE FORFEITED TO THE UNITED- STATE'S.

12

CALIBER CLOCK 22 HANDGUN BEARING SERIAL NUMBER HUL232, AND 17

13

ROUNDS OF .40 CALIBER AMMUNITION, INCLUDING 11 ROUNDS

14

MANUFACTURED BY WINCHESTER AND ONE ROUND BY SPEER, S-P-E-E-R,

15

TWO ROUNDS BY F PMC, TWO ROUNDS OF BLAZER, B-L-A-Z-E-R, AND

16

ONE ROUND BY PPU.

A .4 0-

17

I WANT TO- ADVISE YOU, MR. CONERLY, BECAUSE YOU PLED OPEN,

18

THAT YOU HAVE A RIGHT TO APPEAL THE JUDGMENT OF THIS COURT TO

19

THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT.

20

HAVE TWO WEEKS, 14 DAYS, THAT IS, TO FILE SUCH AN APPEAL

21

PURSUANT TO THE FEDERAL RULES OF APPELLATE PROCEDURE.

YOU

22

IE YOU CANNOT AFFORD COUNSEL ON APPEAL, YOU CAN PETITION

23

FOR THE COURT TO PROCEED IN FORMA PAUPERIS AND ANY FEES WILL

24

BE WAIVED FOR SUCH FILING OF NOTICE OF APPEAL.

25

MR. CONERLY, DO YOU UNDERSTAND YOUR RIGHT TO APPEAL?

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC

j

CERT. APR. 33

Case 4:17-cr-005?8-JSW Document ?? Filed 01/04/19 Page 25 of 26

25

\

1

THE DEFENDANT:

2

THE COURT:

3

MS. MARTIN:

4

MR. DRESSLER:

5.

THE COURT:

NO.

THANK YOU, YOUR HONOR.

COULD THE COURT RECOMMEND THAT

I RECOMMEND THAT TO THE BUREAU OF

PRISONS.

-8
9

ANYTHING FURTHER?

MR. CONERLY RE HOUSED- IN THE- BAY AREA, HOPEFULLY AT LOMPOC-?

6
7

YES.

MR. DRESSLER:

AND ALSO THERE WAS -SOME MONIES THAT

WERE SEIZED BY THE BERKELEY POLICE 'DEPARTMENT AT THE TIME HE

10

WAS ARRESTED.

11

SURE- WHO HAS THAT MONEY.

12

WOULD ASK THE COURT TO ORDER THAT TO BE RETURNED TO

13

MR. CONERLY.

THERE HAS BEEN NO FORFEITURE MOTION AND I'M NOT

14

THE COURT:

15

MS. MARTIN:

16
1?
18

BUT IF IT IS IN FEDERAL- CUSTODY, I

DO YOU KNOW -ANYTHING ABOUT THAT?

T AM PRETTY SURE IT IS NOT IN FEDERAL

CUSTODY.
WE WILL CHECK.
THE COURT:

WHY DON'T YOU CHECK.

IF IT'S IN STATE

19

CUSTODY, YOU NEED TO PETITION THEM.

20

YOU JUST NEED TO FILE A PETITION BECAUSE THERE HAS BEEN NO

21

REQUEST TO FORFEIT THAT IN THIS COURT.

22

IF IT'S IN FEDERAL COURT,

SO I AM NOT MAKING A RULING ON THAT, BUT IF IT’S

IF

23

IT'S BEFORE — IF BERKELEY HAS IT. OR ANOTHER JURISDICTION,

24

STATE JURISDICTION, THEN I HAVE NO JURISDICTION.

25

THEN YOU CAN FILE A MOTION AND I WILL CONSIDER THAT ON THE

IF I DO,

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. ARP. 34

Case 4:17-cr-00578-JSW Document 77 Filed 01/04/19

1
2
3

Page 26 of 26

26

MERITS.
THANK YOU VERY MUCH.
MR. DRESSIER:

THANK YOU.

4
5.

(PROCEEDINGS- ADJOURNED AT 14 ft P.M. )

6
7
-'8
9

CERTIFICATE OF REPORTER
I, DIANE E. SKILLMAN, OFFICIAL REPORTER FOR THE

10

UNITED STATES COURT, NORTHERN DISTRICT OF CALIFORNIA, HEREBY

11

CERTIFY THAT THE FOREGOING IS- A CORRECT TRANSCRIPT FROM TRE-

12

RECORD OF PROCEEDINGS IN THE' ABOVE-ENTITLED MATTER.

13
.1-4
15

DIANE E. SKILLMAN, CSR 4909, RPR, FCRR

16

THURSDAY, JANUARY 3, 2018

17
18
19
20
21
22
23
24
25

DIANE E. SKILLMAN, OFFICIAL COURT REPORTER, USDC
CERT. APP. 35

Case 4:17-cr-00578-JSW Document 65 Filed 11/14/18 Page 1 of 10

1
2
3

4

ALAN A. DRESSLER, ESQ. (SBN #56916)
601 Montgomery St., Suite 850
San Francisco, California 94111
TeL:
(415)421-7980
Fax:
(415)421-7021
E-mail: aJandresster@aol.com
Attorney for Defendant David Coneriy

5

UNITED STATES DISTRICT COURT
6
NORTHERN DISTRICT OF CALIFORNIA
7

OAKLAND DIVISION
8
9

UNITED STATES OF AMERICA,

10
11
12
13

Plaintiff
v.
DAVID CONERLY,
Defendant

14
15
16

CR 17- 00578-1 JSW

)
)
)
)
)
>
)
)
>
)

DEFENDANT CONERLY’S
SENTENCING MEMORANDUM
Date:
Time: 1:00 p.m.
Court: Hon Jeffrey S. White

INTRODUCTION
For most Mr. Conerly’s adult life has been unemployed and addicted to drugs. He has also

17

been arrested or convicted for street level drug crimes and possession offirearms on a number of

18

occasions. However, starting approximately two arid one-half years before.be was arrested in this

19

case he began, for the first time in his life, to try and break free from his cycle of arrest and

20

incarceration followed by another arrest and incarceration, by obtaiang full-time and steady

21

employment for over two years at Goodwill Incorporated. He also applied to was admitted to a

22

CDmnKJsMtaick driving school During that .same tine period he also fifed to extract himself

23

from a lengthy and destructive personal relationship.

24

Mr Coneriy understands that he now appears before the Court for sentencing because despite

25

his best fetentfens, he was not abte to complete Iris rehabflitatfonon his own. He is aware that tire

26

Court will inpose punishment for his conviction and he will be sentenced to federal custody for

27

the first time. However, he is hopeful that the Court will impose a sentence that takes into

28
DEFENDANT CONERLY’S SENTENCING MEMO
IN CR 17- 00578- 1 JSW

1
CERT. APP. 36

Case 4:17-cr-00578-JSW Document 65 Filed 11/14/18 Page 2 of 10

1

consideration his efforts ever the last two years and his efforts to get back on track after his arrest

2

by enrolling in and confuting a numerous programs offered at the Glen Dyer facility. He looks

3 ; forward to taking part in drug lreatment and any other avaibbfc.prograins which will be .offered
4
5

while he is in BOP custody and while he is on supervised release.
The Presentenee Investigation Report (PSR) has determined that his advisory guideline range

6

is 100 to 125 months and recommends a sentence of 120 months, which is the maximum

7

sentence that can be imposed in this case. It is anticipated the government will make the same

8

recommendation. We argue below that the Mr. Coneriy’s advisory guideline range should be 57

9

to 71 months and that a sentence ofslighllytess than 57 months is warranted pursuant to a

10

number of 18 U.S.C. § 3553(a) factors.

11
12
13

ARGUMENT
I. DEFENDANT CONERLY’S OBJECTIONS TO THE OFFENSE LEVEL AND
CRIMINAL HISTORY CALCULATION SET FORTH IN THE PSR
A. Mr. Coneriy Should Not Receive An Enhancement Under U.S.S.G § 2K2.1(b)(6)(B)

14
Mr. Coneriy objects to the four level enhancement under U.S.S.G § 2K2.1(b)(6)(B) set forth
15
in PSR Tj 2. This objection is based on the feet that the evidence in this case does not support the
16
conclusion that Ik possessed cocame base and powder for sale on November 2,2017.
17
At the time Mr. Coneriy was arrested he possessed two plastic baggies, one of which
18
contained three rocks ofcocaine base and the otter a smaB quantity ofpowder cocaine. During
19
that arrest tile Berkeley Police Department (BPD) officers did not find ary unused empty baggies
20
or any cutting implement that could be used to cut the cocaine base rocks into smaller pieces that
21
22

could be sold on the street. Nor did they did they find a scale which could be used to weigh either
type of cocaine.

23

24
25

A review of the BPD reports in this case reveal that when Mr. Coneriy was arrested te
possessed: (1) one loose “small white rock like substance” which was located in his fewer fell
jacket pocket (Exhibit A-1); (2) a “clear sandwich baggie"containing “a white rocky, substance^
26
suspected ofbeing cocaine base with an aggregate weight of20.9 grams, which was found in his
27
“right jacket pocket”. (Exhibit A-2); and (3) a plastic baggie containing approximately 3.5 grams
28
DEFENDANT CONERLY’S SENTENCING MEMO
IN CR 17- 00578- I JSW

2
CERT. APP. 37

Case 4:17-cr-00578-JSW Document 65 Filed 11/14/18 Page 3 of 10

1

ofpowder cocaine found h his “right front pants pocket”. (Exhibit A- 3) None of the BPD

2

reports indicate how many ‘Vocks” were found in foe “sandwich baggie”. The DEA Chemical

3 ; Analysis Report indicates that they received a plastic bag containing three “rock like” units
4

which had a net weight of 18.4 grains and tested positive for cocaine base and one plastic bag

5

containing 3.5 grams of“powder” cocaine, that tested positive for cocaine hydrochloride.

6

(Exhibit B)

7

Based on the foregoing it is not clear whether the “three rock like substances” referred to in

8

the DEA report included the loose rock found in Mr. Conerly’ s right jacket pocket. If that is the

9

case it is likely that foe plastic baggie seized from Mr. Conerly contained two large focks of

10

cocaine base which in total weighed -approximately 18 grams. It does not make sense that if Mr.

11

Conerly was intending to sell rock cocaine on the street at the time he was arrested he would not

12

likely be intending to sell two large rocks on the street, he would be selng smaller rocks, and

13

thus would have had to lave somefojnginfris possession, to cut tbem foto smaller quantities and

14

empty baggies in which to package them Hie same analysis applies to the powder cocaine

15

contained in foe other plastic baggie seized when he was arrested. It is more likely that Mr.

16 Conerly was intending to go home and use one or both types of cocaine for recreational purposes.
17

Moreover, the government has not estab&hed by a preponderance ofthe evidence that the

18

amount of cocaine possessed by Mr. Conerly could only have been possessed for sale as opposed

19

to possession for personal use. The only evidence relied on by foe government to establish that

20

the aforementioned drugs were possessed for sale is the unsigned “affidavit” of a California

21

Highway Patrol Officer, who is completely unqualified to render an opinion that Mr. Conerly

22 possessed foe cocaine fr>r safe. (Exhibit B)
23

That “affidavit” reveals that foe CHP officer has no personal or other experience with street

24

level drug dealing The ‘Curriculum Vitae” submitted with the “affidavit” is completely devoid

25

of any relevant experience dealing with streetlevel drug dealingof any kinder the amount ofor

26

doses of drugs used by people who are abusing drugs as opposed to selling drugs . The only drug

27

related law enforcement experience remotely possessed by the affiant appears to be (a)

28
DEFENDANT CONERLY’S SENTENCING MEMO
IN CR 17-00578- 1 JSW

3
CERT. APP. 38

Case 4:17-cr-00578-JSW Document 65 Filed 11/14/18 Page 4 of 10

1

pevformfog “DRE’s”, which are drug recognition examinations conducted at the roadside when

2

the a vehicle is pulled over for erratic driving and the driver is suspected of either drug or alcohol

3

use and (b) .testifying in.court during a trial of'.a persons arrested for driving under foe inffeence

4

ofdrugs. Also, the CHP officer’s review of “Conerly’s criminal history” as a component of his

5

opinion sheds little light on the issue herein, which is whether or not the drugs found on Mr.

6

Conerly on November 2, 2017 were possessed for safe, not whether Mr. Conerly has a propensity

7

for possessing drug’s for sate in his past.

8

Finally, the searchofMr. Conerly’s phone reveals a number of conversations which are

9

consistent with a person who was seing street level quantities of marijuana as opposed to

10

cocaine. This also would explain why, at the end of the night, Mr. Conerly possessed $737 in

11

currency.

12

Based on the foregoing, we request that the Court reduce Mr. Conerly’s offense level by four

13 points.
14

B. Mr. Conerly Should Not Be Assessed Criminal History Points For His 2003
Conviction For Violating California Health and Safety Code Section 11357

15
The PSR imposes three criminal history points based Mr. Conerly’s 2003 conviction for
16
17

possession ofconcentrated cannabis in violation ofCalifornia Health and Safety Code § 11357.
PSR, 33. We submit that those points should not have been assessed because that conviction

18
; was declared “legally invalid” by the State ofCaEfonria and therefore, cannot be used to increase
19
life Criminal History Category. We request that the Court deduct three points from Mr.
20
21

Conerly’s criminal history score, which would result in his Criminal History Category being
reduced from a Category IV to a Category 111.

22
On April 10, 2017, Mr. Conerly petitioned the Superior Court of Alameda County for a
23
“Redesignation or Dismissal/ Sealing” ofhis 2003 concentrated cammbis conviction pursuant to
24
California Health and Safety Code § 11361.8). (Proposition 64) (Exhibit D) On April 14, that
25
2&

petition was granted and the conviction was recalled, redesignated as a infraction, dismissed, and
declared “legally invalid”. (Exhibit E )

27
Subdivisions (e) and (f) of § 11361.8 state as follows:
28
DEFENDANT CONERLY’S SENTENCING MEMO
IN CR 17- 00578- 1 JSW

4
CERT. APP. 39

Case 4:17-cr-00578-JSW Document 65 Filed 11/14/18 Page 5 of 10

1

(c) A person who has completed his or her sentence for a conviction under Sections 11357,

2

11358,11359, and 11360, whether by trial or open or negotiated plea, who would not have

3 :

been guilty ofm offense or who wmMbay e been guMfy pfafesser offmwMuierMe Control

4

Regulate and Tax Adult Use ofMarijuana Act had that Act been in effect at the time of the

5

offense, may fife an application before the trial court that entered the judgment ofconviction

6

in his or her case to have the conviction dismissed and sealed because the prior conviction is

7

now legally invalid or redesignated as a misdemeanor or infraction in accordance with

S

Sections 11357, 11358, 11359, 11360, 11362.1, 11362.2, 11362.3, and 11362.4 as those

9

sections have been amended or added by this Act (emphasis added)

lO-

(f) The court shall presume the petitioner satisfies the criteria in subdivision (e) unless the

ll

party opposing the application proves by clear and convincing evidence that the petitioner

12

does not satisfy the criteria in subdivision (e). Once the applicant satisfies the criteria in

13

subdivision (e), the court shall redesignate the conviction as a misdemeanor or infraction or

14

dismiss and seal the conviction as legally invalid as now established under the Control,

15

Regulate and Tax Adult Use of Marijuana Act (emphasis added)

16

California Health and SafetyCode §11357, as amended by the “Control, Regulate and Tax

17

Aduk Use of Marijuana Act”, referred to above, legalized foe possession of less than 8 grams of

1$

concentrated cannabis by any person over J 8 years of age1, thus rendering possession of less than

19

8 grams ofthat substance legally invalid under subdivision (e) of § 11361.8.

20

The District Attorney's Office of Alameda County did not object to Conerly's petition tinder

21

§ 11361.8. (Exhibit D, at Page 2 of 3), which is an admission that they could not prove by clear

22

and convincing evidence that Mr. Coneriy wouid have been convicted ofpossessing more than 8

23

grams of concentrated cannabis if he had gone to trial, thus foe Superior Court was authorized

24

under subdivision (f) to dismiss and seal foe conviction as legally invalid.

25

lire effect offoe recall, redesigiation as a infraction, dismissal, and declaration that Mr.

26
27
1

28

Exhibit F

DEFENDANT CONERLY’S SENTENCING MEMO
INCR 17-00578- 1 JSW

5
CERT. APP. 40

Case 4:17-cr-00578-JSW Document 65 Filed 11/14/18 Page 6 of 10

1

Conerly’s 2003 conviction is “legally invalid” on a federal court’s ability to use that conviction

2

to enhance a federal sentence appears to be a matter of first impression in this district and the

3

Ninth Circuit. As discussed below, there is one Ninth Circuit case which las discussed die effect

4

of a state expungement or dismissal on a prior state conviction under California Proposition 47,

5

which among other things, reduced future convictions under California Health and Safety Code §

6

11350(a) from a felony to a misdemeanor and permitted previously-convicted defendants to

7

petition the court for a “recall of sentence”, which, if granted, effectively reclassified those

8

felonies as misdemeanors. See Cat Penal Code § 1170.18(a). However, Proposition47, unlike.

9

Proposition 64, did not authorize California Courts to declare a conviction “legally invalid”.

10

In, United States v. Diaz, 838 F.3d 968 (9th Cir. 2016), fee Ninth Circuit held feat a reduction

11

of an§11350(a) conviction from a felony to a misdemeanor under CaL Penal Code § 1170.18(a)

12

did not have any effect on an earlier federal sentencing which used that conviction to impose a

13 : life sentence under 21 U.S.C. § 841(bXlXA):
14

“... we have addressed whether dismissing or expunging a predicate state conviction

15

invalidates a federal enhancement under this section [21 U.S.C. § 841(b)(l )(A)]. See

16

Norbury, 492 F.3d 1012. In Norbuiy, we held that a state’s later dismissal or expungement of

17

a predicate state conviction had no bearing on whether § 84Ts requirements were met. Id. at

18

1015. In other words, despite fee feet that fee state felony conviction was now expunged, this

19

did not change the historical feet that, for purposes of § 841, the defendant had been

20

convicted of the felony in the past. id. We noted one ex ception: where the dism issal dr

21

expungement alters the legality of the original state conviction—such as where there was a

22

trial error or it appears fee defendant was actually innocent offee underlying crime. Id*

23

(citing Dickerson, 460 U.S. at 115). Other than this circumstance, we explained feat a federal

24

enhancement "does not depend upon fee mechanics of state post-conviction procedures, but

25

rather involves the [state] conviction's underlying lawfulness. Id.” Diaz, 838 F.3d at 973.

26

(emphasis added)

27

Diaz is clearly distinguishable from the instant case because California Penal Code §‘

28
DEFENDANT CONERLY’S SENTENCING MEMO
IN CR 17-00578-1 JSW

6
CERT. APP. 41

Case 4:17-cr-00578-JSW Document 65 Filed 11/14/18 Page 7 of 10

1

1170.18(a) did not authorize the state courts to declare a conviction to be “legally invalid”

2

whereas §11361. 8, subdivisions^) and (f), do authorize such a declaration. Based upon the

.3 ; foregoing we request that this court subtract three points from Mr. Coneriy’s criminal history

4

score.

5

C. Conclusion

6

Ifthe court accepts the arguments set forth in A. and B., supra, Mr. Conerly will have a total

7

offense level of 23 and a crimkial history Category of HI, which results in an advisory Guideline

8
range of 57 to 71 months.
9 JlL MITIGATING FACTORS UNDER 18 U.S.C. 3553(a)
10

11k Court is familiar with the directives of United States v. Booker, 543 U.S. 220 (2005) and

111 18 U.S.C.§ 3553(a). The Sentencing Guidelines range is not mandatory and the Court has a duty
12

to exercise judgment and discretion in arriving at an appropriate sentence. Importantly, the

13

dis tric t court may not presume

14

U.S. 350, 352 (2009) (per curiam). Instead, the Court must consider tire Guidelines range, the

15

nature and circumstances of the offense, tire history and characteristics of the defendant, and the

16

need to avoid unwarranted sentence disparities among similarly situated defendants. 18 U.S.C. §

IT

3553(aXl ), (a)(4) and (aX6). In crafting a sentence that is sufficient, but not greater than

18

necessary, to comply with the purposes set forth in 18 U.S.C.§ 3553(a), the Court,roust also

19

consider the need for the sentence imposed: (A) to reflect the seriousness ofthe offense, to

20

promote respect for tire law, and to provide just punishment for the offense; (B) to afford

21

adequate deterrence to criminal conduct; and (C) to protect the public from further crimes of the

22

defendant IS U.S.C. 3553(a)(2).

Guidelines range is reasonable.. Nelson v,. United Statesr 555

23

In determining what a reasonable sentence would be we ask the Court to consider Mr.

24

Coneriy’s upbringing, including childhood and adult traumas, and early addiction to drugs.

25

Although his extensive cranmal record is not justified by his upbringing, Iris recent but

26

unsuccessful efforts to break free from an adulthood crippled by a repeating cycle of criminal

27

activity followed shortly thereafter by incarceration provides insight into who he has been and

28
DEFENDANT CONERLY’S SENTENCING MEMO
INCR 17-00578- 1 3SW

7
CERT. APP. 42

Case 4:17-cr-00578-JSW Document 65 Filed 11/14/18 Page 8 of 10

1

who he can become . Mr. Conerly’s letter to the Court mdieates that the age 40 he is ready to have

2

a normal life and that he accepts full responsibility for his conduct He understands that the Court

3 ; ^.psxtai^ria3P.Qseiii.?®tafi5attf teim of imprisonment, and yet he is hopeful that the sentence
4

imposed will provide him a chance to lead that normal life before he is too old to enjoy it

5

Mr. Conerly’s describes his home life while was growing up as a ‘harsh reality” that was

6

punctuated by his father’s drug addiction, periodic extreme poverty, witnessing verbal domestic

7

violence by his father directed towards his mother, and the passing of his grandmother, who was

8

the person he felt closest to. See PSR at fj) 56 -59. His tetter to the Court sets forth in his own

9

words, the harsh and difficult upbringing he received at home, other traumatic events that

10

affected his behavior as an adult, and the poor decisions he made in his choice of friends and tie

11

adoption those friends’ lifestyle. (Exhibit G)

12

On February 22,2013, Mr Conerly was arrested by the Berkeley Police Department for

13 possession, of a controlled substance and possession^ a gun. PSR § 47-As a result of this arrest
14

lie was indicted for a violation of 18 U.S.C. 922(g) in this court on October 31, 2013.(CRNo.

15

13-7171ST) On Decembers, 2014 Judge Tigar granted a motion to suppress all of the

16

incriminating evidence in that case. (Dkt. 97) The government appealed and Mr. Conerly was

17

released from custody in late 2 014 or early 2015 and was placed on the equivalent of pretrial

18

release to a half-way .bouse where he resided for anumberof months. On March 9,2014 with the

19

blessing of Mag Ryu, Ik obtained a job at Goodwill The indictment was dismissed by the

20 government on April 13 ,2015 (Dkt. 129) As a result o f the guidance and help of federal pretrial
21

services, and the half-way house, Mr. Conerly did something he had never done before in his

22 : entire adult fife — he worked foll-tirae for two years straight anddevetopeed a ptento enroilina
23

truck driving school that could provide him with a high paying full-time job. Although he was

24

arrested, but not charged on two occasions during the week ofAugust 3, 2015 (PSR^ft] 50- 51) he

25

had no law enforcement contacts for over two years — until he was arrested by Berkeley police

26

officers on November 2, 2017 for offense in this case. After that arrest, he was released on bail

27

and traveled to Fontana, California to attend the CR England Truck Driving School, which; he

28
DEFENDANT CONERLY’S SENTENCING MEMO
IN CR 17- 00578- 1 JSW

8
CERT. APP. 43

Case 4:17-cr-00578-JSW Document 65 Filed 11/14/18 Page 9 of 10

1

had been trying to enroll in since April of 2017. (Exhibit I) On his second day at the school he

2

was arrested by FBI agents pursuant to the instant indictment. He certainty regjets and takes

3

responsibility for his relapse. However, despite that relapse, bis two years offui-lime

4

employment nevertheless establish, that with the proper supervision and guidance he is capable

5

ofbecoming a productive citizen.

6

With the foregoing in mind, we respectfully suggest that the Probation Officer’s

7

recommendation that Mr. Conerfybe sentenced to the maximum sentence often years is not

S

warranted. It appears that a significant basis for that recommendation is the fact that “While on

9

community supervision... {Mr. Conerty] has struggled to retain from base cocaine and powder

10

cocaine usage” and has “foiled “ to modify his conduct while on community supervision.”

11

Sentencing Recommendation at p. 1-2). While those statements are certainty true, for essentially

12

all of that supervision lie was on state probation or parole, neither of which provide tire programs,

13 . guidance and supervision provided by the BOP and supervised re lease .monitored by U. S.
14

Probation. Additionally, those statements give no weight to Mr. Conerfy’s more recent self-

15 directed attempts to modify his conduct after tire case before J. Tigar was dismissed, and his
16

participation in numerous rehabilitative progams since he has been detained the Glen Dyer

17 Facility. (Exhibit J) Mr. Conerty’s two and one-halfyears of self-directed rehabilitation establish
IS

that be .is capable of being rehabilitated. This is especialfytrue ra light of the fact that after he is

19

released from BOP custody he will have the support of his fiancee, his child and former wife, and

20 : his fomifyand friends, all of whom have submited letters ofsupport to the Court. (Exhibit K)
21

We suggest that Mr. Conerfy’s successes resulting from his federal pretrial supervision

22

described above and the programs he has participated in at Glen Dyer while in custody in this

23

case will only increase once Mr. Conerty takes part in drug and other counseling while in the

24

custody of the BOP. And the same is true when he is on supervised release after he completes his

25 custodial sentence. We respectfully submit that tire foregpfog is a reason to decrease, rather than
26

increase, the length of Mr. Conerfy’s BOP sentence and request that the Court imposed a

2T custodial sentence of slightly less than 57 months.
28
DEFENDANT CONERLY’S SENTENCING MEMO
IN CR 17- 00578- 1 JSW

9
CERT. APP. 44

Case 4:17-cr-00578-JSW Document 65 Filed 11/14/18 Page 10 of 10

1
2

Respectfully submitted,

3

/s/
Alan A. Dressier
Attorney fbr Defendant
David Conerly

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21

22
23
24
25
26
27
28
(

DEFENDANT CONERLY’S SENTENCING MEMO
INCR 17-00578- 1 3SW

10
CERT. APP. 45

Case 4:17-cr-00578-JSW Document 64 Filed 11/13/18 Page ! of 17

ALEX G. TSE (CABN 152348)
United States Attorney
BARBARAX VALLIERE (DCBN 439353)
Chief, Criminal Division
BRIGID MARTIN (CABN 231705)
WILLIAM J. GULLOTTA (CTBN 423420)
Assistant United States Attorneys
1301 Clay Street, Suite 340S
Oakland, California 94612
Telephone: (510) 637-3680
FAX: (510) 637-3724
Brigid.Martin@usdoj.gov
Attorneys for United States of America
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
OAKLAND DIVISION
UNITED STATES OF AMERICA,

) CASE NO. CR 17-00578 JSW
)

Plaintiff,
v.

) UNITED STATES’SENTENCING
) MEMORANDUM
)

DAVID CLAYTON CONERLY,

) HEARING: NOVEMBER 20, 2018 AT 1:00 p.m
)

) THE HONORABLE JEFFREYS. WHITE
Defendant.

I.

)

INTRODUCTION

The defendant, David Conerly, has been a danger and a menace to his community in Berkeley
for most of his adult life. He has consistently sold drugs, carried loaded firearms, and disobeyed the
police in Berkeley . His illegal possession of firearms and drugs contributes to a significant drug and gun
problem in the Bay Area. This conduct can often lead to violence, and the defendant has in fact engaged
in violence during the course of an adult life filled with arrests and incarceration. The defendant’s
conduct in this case is alarming. He not only possessed a firearm illegally, but he did so while
threatening a woman, whom Conerly physically struck with a bat before she called 911 to report him
The defendant was drunk during this intense argument, and although the victim apparently did not know
it, Conerly was carrying a loaded gun. This is an example of a circumstance in which the crime of

CERT. APP. 46

Case 4:17-cr-00578-JSW Document 64 Filed 11/13/18 Page 2 of 17

illegal gun possession can escalate into even more serious and dangerous conduct. Thankfully, no one
was hurt with Conerly’s gun in this case.
One of the most disappointing features of this case is that prior to the instant offense, the
defendant was prosecuted by this U.S. Attorney’s Office in 2013-2015 for being a felon in possession of
a firearm. See United States v. David Conerly, CR 13-07171ST. After years of arrests and convictions
in state court that did not deter the defendant, he finally faced a serious federal prosecution with the
possibility of a ten-year prison sentence. That case ended without a conviction, however, after Judge
Jon S. Tigar suppressed the evidence of the defendant’s illegal drug and gun possession. Id., Dkt. # 97
(Order suppressing evidence), indeed, on April 10,2015, the United States dismissed the ease because
of the suppression of the evidence. Id., Dkt. #129 (Order of Dismissal). As such, Conerly narrowly
escaped a federal prosecution after a long string of state arrests and convictions. Disappointingly,
instead of counting his lucky stars and finally deciding to stay out of trouble, Conerly went right back to
it. Within approximately four months of the dismissal of that federal case, Conerly was arrested for
obstructing a police officer and being a felon in possession of a firearm following a domestic dispute.
PSR, f 48. Twelve days later, he was arrested for possessing fraudulent credit cards. PSR, 49. Then,
following his anest in this case in late 2017, he found himself back in federal court once again feeing a
ten-year federal prison sentence for the illegal possession of a loaded gun and drugs he intended to sell.
After all of the prior convictions, arrests, fights with the police, and repeated attempts to flee the
police, die defendant has shown this Court that he lacks either the ability or the intention to become a
law-abiding citizen. The defendant even had a job and was about to begin to train for a new job as a
truck driver when he committed the instant offense. This was not some sort of crime of necessity;
Conerly has always made the choice to continue his criminal lifestyle, and the Court now knows that he
will always return to gun and drug crimes. He will always resort to violence and hurting people.
Accordingly, to account for the defendant’s criminal history and the offense conduct in this case, the
government joins the U.S. Probation Office and respectfully asks this Court to sentence the defendant to
ten years in prison, which is within the applicable guidelines range and represents the maximum
sentence available under the 18 U.S.C. § 922(g)(1). The government also recommends a 3-year term of
supervised release with the special conditions described herein, no fine, forfeiture of the gun and

CERT. APP. 47

Case 4:17-cr-00578-JSW Document 64 Filed 11/13/18 Page 3 of 17

ammunition listed in the Indictment, and a $100 special assessment.
II.

FACTUAL BACKGROUND

A. The Instant Offense.1
1. Domestic Violence and a 911 Call Lead to the Defendant’s Arrest.
On November 2, 2017, the defendant, David Conerly, was arrested by the Berkeley Police
Department and charged with a number of crimes. See Dkt. # 30, Declaration of FBI Special Agent
Beth Alvarez (“Alvarez Deck”), f 3, Ex. 1 (Berkeley Police Report), The police responded to a 911 call
reporting a domestic violence incident involving the defendant. The victim (the defendant’s exgirlfriend) told the police that Conerly came to her house drunk, they got into an argument, and she was
scared so she picked up a bat to defend herself. PSR, f 5. Conerly grabbed the bat and threw it at her,
hitting her in the leg with the bat Id. She told Conerly she was going to call the police, and he left the
house. Id. Tire victim called the police and described the defendant. The police arrived quickly and
saw the defendant nearby. Id. The police called out to the defendant, but he ignored their commands
and ran away from them. They chased after him through the residential area. PSR, f 6, When the
police caught up to Conerly and detained him, he fought with them violently. PSR, ^[7. When he tried
to empty his pockets, an officer ordered him to stop. id. Conerly responded, “Fuck you bitch. I’ll fuck
you up.” Id. He fought with the police so much that they were forced to try to restrain him in a WRAP
restraint. Id. While officers tried to get control of Conerly and place him in the WRAP restraint,
Conerly kicked a female officer in the middle of her chest. PSR, % S. He yelled and threatened them,
saying, “Get off me mother fucker before I kill your ass,” and “Fuck you, bitch, I’m going to kill you.”
Id. Conerly also spat on officers, even spitting in one officer’s face and neck. Id. As such, the officers
placed a “spit hood” on Conerly to prevent him from further spitting on them. After the officers finally
got Conerly into a police car to transport him to die Berkeley jail, Conerly began hitting his head on the
Plexiglas drat divides the front and rear of the police car. PSR, 9. He attempted to kick out the rear

i

The facts of the instant offense are described in the government’s memorandum in opposition
(Dkt. # 29) to the defendant’s motion to suppress. The facts listed in the government’s opposition are
supported by declarations and other evidence. For any citations not contained herein, the government
respectfully refers the Court to Dkt. # 29 for the full testimonial and other evidentiary support for the
facts recited in this Sentencing Memorandum.
CERT. APP. 48

Case 4:17-cr-00578-JSW Document 64 Filed 11/13/18 Page 4 of 17

driver’s side window. Id. When an officer instructed Coneriy to stop, Conerly said, “Fuck you, you
hitch ass niggal I’m going tokill you, bitch.” Id. Eventually, medical and/or fire personnel'gave
Conerly a sedative, which finally calmed him down. Id. He was later booked into jail, where officers
found cash, additional drugs, and ammunition on areas of Conerly’s body that the police were unable to
search previously because of the need to place him in a WRAP restraint. PSR, {[ 10.
During and after the struggle, the police searched the defendant and the area around him and
found his .40 caliber Clock pi stol, multiple rounds of ammunition, cocaine base in quantities typically
possessed for sale, and his cell phone, among other things. PSR, {[{[ 6-8. The police lawfully seized the
defendant’s cell phone incident to his arrest. Conerly was in possession of approximately 17.52 grams
of cocaine base (“crack cocaine”). See DEA Report (CONERLY-000255), attached hereto as Ex. 1.
Crack cocaine can be ingested by users in amounts as little as .10 grams. See Affidavit of CHP Officer
Sean Deise, attached hereto as Ex. 2. Officer Dei se reviewed evidence from this ease relating to the
arrest and the drugs seized from Conerly and rendered his opinion that “17.52g of cocaine base ...
would far exceed the amount considered for personal use [because with that amount] Conerly could
possibly ingest cocaine base 175 times.” Id. The police also seized $737.00 from Conerly. This cash
was in small denominations, and Officer Deise found this to be further evidence that Coneriy possessed
the crack cocaine in this case for sale, not for personal use. Id.
According to the police report, Conerly was charged with multiple offenses, including possession
of cocaine base for sale, assault with a deadly weapon other than a firearm, battery,2 felon in possession
of a firearm, and possession of a controlled substance while armed with a loaded firearm. Id. Shortly
thereafter, on November 16,2017, a federal grand jury returned the Indictment in this case, charging the
defendant with a single count of being a felon in possession of a firearm and ammunition. United States
v. David Clayton Conerly, CR 17-0578ISW, Dkt. # 1. After filing a motion to suppress (Dkt. # 28),
which was denied {Dkt. ## 43, 52), the defendant pleaded guilty to the charged offense (Dkt. ## 58,59).
On March 8,2018, the FBI searched the defendant’s cell phone and found multiple text
messages reflecting drug trafficking activity, including requests for price quotes and certain strains of

2 The victim obtained an emergency protective order against Conerly the day after the domestic
violence incident that led to his arrest. PSR, {[11.
CERT. APP. 49

Case 4:17-cr-00578-JSW Document 64 Filed 11/13/18 Page 5 of 17

marijuana. PSR, f 13. There was also a message in which the defendant spoke about have a certain
quantity of somethi ng that was “spoon-ready. ” Conerly’s cell phone also contained a oloar image of die
pistol that he possessed in this case, including the large-capacity magazine. See Alvarez Dec!., Ex. 2
(Dkt. # 30).
B. The Defendant’s Criminal History.
The defendant has four prior adult convictions, all of which are felonies . He has two prior
convictions for controlled substance offenses, each of which involved cocaine base for sale, including
quantities similar to the quantity of cocaine base involved in this case. PSR

30 (approx. 15.5 grams)

and 32. He also has a prior conviction for possession for sale of a controlled substance (PSR, 33) (this
involved cocaine and crack cocaine), and another for drug possession (PSR f 31) (marijuana). In
addition to his convictions, Conerly has been arrested many times in cases that either led to a revocation
of parole or probation instead of a new criminal ease, or were dismissed for other reasons. See PSR, f
38 (probation revocation in lieu of new charges); PSR, f 39 (probation revocation in lieu of new filing);
PSR, f 40 (violation of parole); PSR, ^ 41 (defendant returned to prison for 10 years following burglary
arrest for violating terms of probation issued following conviction listed in PSR, f 32); PSR, f 42
(returned to CDCR custody following arrest for carrying concealed weapon and felon in possession of
firearm); PSR, f 43 (returned to CDCR custody on parole violation after arrest for obstructing police and
possession of cocaine); PSR, f 44 (returned to CDCR on parole violation); PSR, f 45 (prosecution
deferred for revocation of parole, mid returned to CDCR custody on parole violation in case invol ving
crack cocaine and a loaded handgun); PSR, f 46 (returned to CDCR custody on parole violation in case
involving drugs and a loaded gun); PSR, 47 (returned to CDCR custody for parole violation in case
involving arrest for felon in possession of firearm, possession of cocaine base for sale, and obstructing
;

tli e police); PSR, f 48 (charges not filed due to lack of evidence in domestic vi olence case in which
V.

Conerly brandished a handgun on die same victim who called the police in the instant case following a
domestic violence incident); and PSR, f 49 (no charges filed in case involving marijuana and fraudulent
credit cards in Conerly’s pockets).
Many of Conerly’s arrests also included Conerly’s possession of crack cocaine, often in
quantities similar to the quantity in this case. See PSR, f 30 (15.5 grams of crack cocaine); PSR, f 32

CERT. APP. 50

Case 4:17-cr-00578-JSV\/ Document 64 Filed 11/13/18 Page 6 of 17

(seven pieces of cocaine base); PSR, f 33 (15 rocks of cocaine base, along with 23 packages of cocaine);
PSR, 137 (involving 11 rocks of crack cocaine weighing 3.376 grains); PSR, f 38 {involving “two rocks
of base cocaine,” although there was another passenger with Conerly in the car); and PSR, f 45 (six
rocks of cocaine base packaged for sale); PSR, {] 47 (arrest for possession of cocaine base for sale).
Notably, during every single arrest that led to a conviction {including this ease), Conerly fled
from the police, often putting those officers and/or nearby citizens in danger. See PSR, f 6 (during the
instant offense, “Mr. Conerly fled from the officers and failed to comply with verbal commands.”); PSR,
130 (“Officers attempted to contact Mr. Conerly but he started to run away and into oncoming traffic.”);
PSR, 1: 31 (Conerly “fled through a residential area [and] ... attempted to evade officers by jumping
fences and running through yards.”); PSR, f 32 (Conerly “fled on foot and {was] observed discarding a
.357 revolver in a driveway [and]... climbing on a rooftop and jumping fences in an attempt to avoid
airest.”); and PSR, f 33 {Conerly “exited his home and fled the area.”). Conerly also fled from the
police during arrests that either led to revocations of parole or probation or were dismissed without
further action. See PSR, 36 (Conerly “fled out of the bank and collided into a responding officer on a
bike. Mr. Conerly continued to run from the officers but was apprehended a short time later.”); PSR, f
37 {“Conerly robbed a cashier at Walgreens at gunpoint, and fled with cash,” and then “fled on foot”
from the officers.); PSR, f 41 {after committing a burglary, Conerly fled but was later found by
officers); and PSR, f 43 (Conerly “stepped out of the vehicle and immediately ran to the rear of the
vehicle, attempting to flee the scene on foot,” mid when an officer caught up to him, “Conerly threw his
elbows back and violently thrashed his upper body attempting to free himself from the deputy’s grip.”).
The defendant has been sentenced to prison multiple times, and he has violated the terms of his
parole and probation repeatedly. The defendant has accumulated nine criminal history points, which
places him at the uppermost part of-criminal history category IV in die Sentencing Guidelines. Hie
instant offense will add three points to that total in the future.
Hi

SENTENCING GUIDELINES

The government agrees with Guidelines calculations in the PSR. Conerly’s criminal lifestyle has
resulted in a Guidelines range of 100-120 months. PSR, 79. The government agrees with the U.S.
Probation Office that there are no bases for either a downward departure or variance from that

CERT. APP. 51

Case 4:17-cr~00578-JSW Document 64 Filed .11/13/18 Page 7 of 17

Guidelines range. PSR,

94-95. The defendant’s criminal history points place him at the top of

criminal history oategory IV, and the government respectfully recommends a sentence of 126 months.
IV.

ARGUMENT

A. The Nature and Circumstances of the Offense Warrant a Sentence of 120 Months.
This was a serious offense for multiple reasons. First, the defendant was in possession of a
loaded gun while also in possession of crack cocaine, which he intended to sell . The combination of gun
possession and drugs is very dangerous. Moreover, he had just assaulted a woman whom he has
assaulted previously. The defendant was drunk, violent, and in possession of a loaded firearm. When
tire police attempted to speak to him, he fled, as he always does, lie led the police on a brief foot chase
between houses in a residential area. He was armed, and the police were armed. This put innocent
people in danger.
The 4-level increase under 2K2.2(b)(6)(B) for possession of the firearm in connection with
another felony is warranted because the defendant was in possession of crack cocaine for sale at the time
he possessed the gun. The defendant has a long history of selling crack cocaine, including in quantities
similar to the amount he possessed in this case, and he routinely carries a loaded gun while dealing
drugs. Ihe evidence in support of his enhancement includes the quantity ofdrugs lie possessed in this
case, the currency he had in small denominations, the opinion of CHP Officer Deise that the defendant
was in possession of crack cocaine for sale, and the defendant’s history of selling crack while armed,
which is documented in the PSR. The 4-level increase should be applied to the base offense level of 26.
The defendant’s conduct in this case was very serious, and this factor weighs in favor of a 120month sentence.
B. History and Characteristics of the Defendant.
David Conerly sells crack, carries a loaded gun, and runs from the police when he gets caught.
He has done this for years, mid the conduct in this case is consistent with the lifestyle Conerly has
chosen to lead for decades. Conerly has been incarcerated many times, following either a revocation of
parole or probation or a new conviction, yet the prison terms he has received thus far have simply not
deterred him from committing future crimes. Conerly speaks fondly about his relationship with his great
grandmother, but the fact that he was incarcerated during her funeral was not significant enough to deter

CERT. APP 52

Case 4:17-cr-00578-JSW Document 64 Filed 11/13/18 Page 8 of 17

him from missing future life events while in prison. PSR, 57. No matter the punishment Conerly has
received, he has always returned to drug and gun crimes. He reports having lost a cousin who was
murdered, apparently a result of gun violence. Id. This did not deter the defendant from strapping on a
loaded gun and heading out to deal drugs. The defendant’s criminal history is lengthy and deplorable.
His treatment of the police in this case and repeatedly throughout his adult life is shameful. This factor
weighs in favor of a 120-month sentence.
C. The Need to Punish the Defendant, Deter Others, and Protect the Community.
Similarly, a 120-month sentence is warranted to punish the defendant and deter him from
committing another crime in the future. The sentences lie lias received thus far have been inadequate, it
is also necessary to deter others from committing this crime in a city that has been plagued by gun
violence and drugs for many years. This Court ’s judgment will hopefully show other habitual recidivists
that lenient sentences repeated in the state court system are not an indication of how the federal courts
treat this conduct. Other repeat criminals must know that despite the state court’s inability to deal with
criminals like this defendant, the federal courts take this type of dangerous conduct very seriously. A
120-month sentence will also protect the community from the defendant for the better part of the next
ten years.
D. A Suspicionless Search Clause Is Warranted.
The government respectfully recommends an “expanded search condition,” to include the
suspicionless search of the defendant and his property, including cell phones and other electronic
devices. This is the kind of case that cries out for a suspicionless search clause. The nature of the
offense and the defendant’s criminal history make ft clear that a suspicionless search clause is warranted.
This condition is appropriate because his past conduct and the offense conduct suggest that he is at a
particularly high risk of reoffending. See United States v. Cervantes, 359 F.3d 1175,1134 (9th Cir.
2017) (detennining suspicionless search clause was justified to mitigate risk of reoffense). Indeed, the
defendant used his phone in connection with the instant offense (he was trying to sell the gun by sending
pictures and messages), and he used the phone to facilitate the drug trafficking offenses that are the basis
for the 4-level increase of the base offense level in the Guidelines.

CERT. APP. 53

Case 4:17-cr-Q0578-JSW Document 64 Filed 11/13/18 Page 9 of 17

E. A Community Service Condition Is Warranted.
Likewise, the government recommends n community service condition in die terms of
Supervised Release (or probation). Idle time is not a good idea for this defendant. A community service
condition will keep the defendant busy upon his reentry into society, and hopefully give him a sense of
contribution to his community that will deter him from committing future crimes.
V.

CONCLUSION

For the reasons stated herein, the United States respectfully recommends a sentence of 120months in prison, three years on Supervised Release with special conditions described above (expanded
search and community service conditions), no fine, forfeiture of die firearm and ammunition fisted in the
Indictment, and a $100 special assessment.
DATED: November 13,2018

Respectfully submitted,
ALEX G. TSE
United States Attorney
/s/

BRIGID MARTIN
WILLIAM J. GULLOTTA
Assistant United States Attorneys

CERT. APP. 54

/

Case 4;17-cr-0Q578-JSW Document 64 Filed 11/13/18 Page 10 of 17

EXHIBIT 1

CERT. APP. 55

Case 4:17-cr-00578-JSW Document 64 Filed 11/13/18 Page 11 of 17
■

%
g
'JF

U.S. Department of Justice

Western Laboratory

Drug Enforcement Administration

Pleasanton, CA

a <5iforceme<''’

Chemical Analysis Report
FBI-San Francisco Office
45QSoldenGate Awe., 13th Floor
SanFrandsco.CA 94102-9523

UMS Number: 2017-SFL7-G5156

- * LS!

-S
lllimn lidjll «L

l bill ■■■.!

-JiT?

OSSKBaBRSDam 5 VIVB mBUBTHB

asg:........... • ■ ••

Exhibit

Substance(s) Identified

Net Weight

1B20.01

Cocaine Base

18.416 g 10.004 g

1620.02

Cocaine Hydrochloride

3.506g± 0,001 g

Substance Purity

•:

••

•:

Amount Pure Substance

Remarks:
Exhibit 1620.01: The netweightwas determinedbydirectweighing of all unites]. The'netweight un certaint'y value represent? an expanded’
uncertainty estimate art the 95% level of confidence.
Exhibit 1B20.02: The net weight was determined by direct weighing of all unit(sy. The net weight uncertainty value represents an expanded
uncertainty estimate at theS5% level of confidence.
;»■■

Exhibit Ibetails:

,

:

Date Accepted by Laboratory: 11/21/2 017

■

:-

r• „

.. . ■

7

:■ v

Qross Weight: 110,0 g

Exhibit

No. Units

Pkg, (Inner)

Form

Reserve Wt.

1B2Q.Q1

3

Plastic Bag

Rock Like

1B20.O2

1

Plastic Bag

Powder

17.52 g
3.432 g

Remarks:

W1WViiSL

1_______

.

— ■■

H.4.1-11,■ ■

1 ft: :•;

:• ::

.......j

awiMiiiMimiMZ

:

l

■1

Sampling:
.Exhibit lB20Ul: Cocaine confrrmed in-3 units tested of 3 .units received. Sait form-determined fromtesting.3.units. A composite was
formed from 3 units for further testing.
Exhibit 1B20.02: A composite was formed from 1 unit for testing. Cocaine confirmed in the composite. Salt form determined from testing the
composite.
Exhibit

Summary of Testfs)

1B20.01

Gas Chromatography/Mass Spectrometry, Infrared Spectroscopy

1B20.02

Gas Chromatography/Mass Spectrometry; infrared Spectroscopy

Analyzed By: /S/ Shana M. Irby, Senior Forensic Chemist

Date: 01/05/2018

Approved By: /S/ Roger A. Ely, Supervisory Chemist

Date: 01/08/2018

DEA Form 113 August 2013

P^e 1 of 1

CERT. APgc^gjRLY-000255

Case 4:17-cr-00578-JSW Document 64 Filed 11/13/18 Page 12 of 17
■

f

EXHIBIT 2

CERT. APP. 57

<

Case 4:17-cr-QQ578-JSW

Document 64

Filed 11/13/18

Page 13 of 17

DEISE, SEAN P@CHP
California Highway Patrol - Oakland, 3601 Telegraph Ave., Oakland, CA 94609 | (510)450-3821 | sdeise@chp.ca.gov

This affidavit is for the purpose of giving my opinion in the matter of David Conerly (CA/DL# B4581069).
I have read and reviewed Berkeley Police Report # 2017-00066824, Conerly's criminal history, and the
facts and evidence presented in the police report. After reviewing the facts outlined in Berkeley Police
Report # 2017-00066824, i befieve Conerly was In possession of cocaine base for sale and transportation
of cocaine base for sale. I believe this to be true due to the following factors:
Conerly was found to have a large amount of cocaine base on his person (N I K tested positive):- Cocai ne
base is a technical term for the street drug "Crack". Cocaine base is a CNS Stimulant with a usable
amount weighing as little as .10g. Due to Conerly having a total of 17.52g of cocaine base, this Would far
exceed the amount considered for personal use. With Conerly being in possession of 17.52g of cocaine
base and a usable amount of cocaine base being as little as .10g, Conerly could possibly ingest cocaine
base 175 times.
Conerly was found to have $737.00 of United States currency, in small denominations on his person at
the time of his arrest. Due cocaine base being sold on the streets for as little as $5.00-$10.00, it would
be reasonable for Conerly to have currency with various denominations. Due to my training and
experience, I know street level dealers carry a large sum of currency consisting of $20.00 bills, $10.00
bills, $5.00 bills, and $1.00 bills. Carrying currency in this fashion is consistent with an individual who
may be selling street level drugs.
Conerly's criminal history indicates he has had shown a propensity of selling narcotics, specifically
cocaine, cocaine base, and marijuana. Per CRIMS, Conerly has prior convictions for 11351 H&S
(possession with intent to sell) in 1999 and 2010. Conerly also has felony convictions for 11351.5(,a)j-l&S
(possession of cocaine base for sale) and 11357(a)H&S (possession of 28.5g or more of marijuana) in
2003.

CERT. APR. 58

i

l

Case 4:17-cr-00578-JSW Document 64 Filed 11/13/18 Page 14-of 17

D

ORRinJUrM VITAE
CURRENT ASSIGNMENT
Officer

July 2008-Present

ID Number: 19059
DREID Number: 18552
Academy Graduation Date: JtHyll, 2008
DRE Certification Date: April 01, 2011
DRE/lnstructor Expiration Date: April 01, 2020:

EDUCATION
California State University Stanislaus, Turlock, CA
Bachelors of Science (Sociology)

2004-2006

I was the 2006 C. Wright Mills Sociology Student of the Year recipient. I had a 3.8 overall GPA
Mesa Comm unity College, Mesa, AZ
General Studies

1998-2003

Chandler/Giibert Community College, Gilbert, AZ
General Studies

1998-2003

Dobson High School, Mesa, AZ
High School Diploma

1996-1998

I was a member of the varsity baseball team three years in a row. Iwas president of the Latin Club my senior year.
I was involved in the student athletic trainer program three years in a row.

LAW ENFORCEMENT ASSIGNMENTS
California Highway Patrol - Oakland, Oakland, CA
Officer

July 2008—Present

■l interpreted and applied the provisions of the Vehicle Code, Penal .Code, and other complex.laws inThe course of my enforcement actions. I
stopped motorists for unsafe or illegal traffic actions, as well as for vehicle equipment violations. I issued all types of enforcement documents
and conducted lengthy investigations with thorough reports. I conducted in-view patrol and maintained responsibility for my assigned beat. I
responded to, and investigated, various types of traffic collisions. I rendered daily assistance to members of the motoring public. I assumed
incident command at complex scenes and delegated responsibilities to fellow officers in ofder to expedite- the investigation, as well as minimize
traffic congestion. In addition to my road patrol duties, I also serve as a Field Training Officer (FTO), Drug Recognition Expert (DRE), and assisted'
the.Oakland CHP Area office with the ORE. Certification site, t serve, as a ORE. instructor, SFST instructor, ARIDE instructor, as well as a PAS
coordinator/instructor. As a DRE instructor, I have given the opportunity to oversee and instruct students at the CHP Oakland certification site.
I have taught DUI/DRE classes to-various law enforcement agencies and professional sports teams (Oakland Raiders), Such classes include
ARIDE as well as DRE Re-Certification classes. I have also assisted the DUI/DRE unit with cadet wet labs. Due to the level of trust pbced upon
me, in the absence of the unit supervisor, I have been entrusted as the Officer-in-Charge (OIC) of the unit on several occasions.

CERT. APP. 59

Case 4:17-cr-00578-JSW Document 64 Filed 11/13/18 Page 15 of 17

<

Cadet

ianuary 11,2008 -July 7, 2008

I -received -instruction in the interpretation and application of the Penal Code, Vehicle Code, and laws of arrest, i successfully participated in,
and completed, firearms training, accident investigation, Community Oriented Policing Services (COPS), Incident Command System (ICS),
Hazardous Materials (HAZMAT) training, detection and apprehension ofpersons drivingunderthe influence, controlled substances
identification, controlled substance law, problem solving, conflict resolution, and the Emergency Vehicle Operations Course (EVOC). I
demonstrated-proficiency in enforcement tactics, physical methods of arrest, thorough report writing,-and effective speaking. 1 received order
and direction from the instructional staff of various ranks.

LAW ENFORCEMENT TRAINING AND COURSES

Intermediate AccidentInvestigation

05/2018

Officer In Charge (OIC) Training

07/2016

C.N.O.A. Conference- San francisco

12/2015

-Prescription Medications/Po1y Drug Else
-Synthetic/Designer Drugs
-Medical Marijuana
Area Representative for the CHP Oakland Area Office

Current

•individual Crisis intervention and Peer Support- CHP H eadquarters (13 Hours)

09/2015

Group Crisis Intervention- CHP Headquarters (14 Hours)

09/2015

Associate-Instructor for ffEPPrograim Academy; West Sacramento (40-Hburs)'

05/2(315

Field Training Officer-Academy, West Sacramento (40 Hours)

02/2015

PAS Coordinator Ciass - CHP Oakland, Oakland, CA (8 Hours)

11/2014

law Enforcement Active Shooter Emergency Response - Hayward, CA (8 Hours)

02/2013

Taser Training - Oakland CHP, Oakland, CA (8 Hours)

12/2012

Drug Recognition E valuator Instructor Course - Academy, Wes t Sacramento, CA -(40>tours)

06/2012

Standardized Field Sobriety Testing instructor - Academy, West Sacramento, CA (40 Hours)

04/2012

Drug Recognition Expert School — Redding, CA (40 Hours)

11/2011

Drug Recognition Expert Field Certification - CHP Oakland, Oakland, CA (40 Hours)

04/2011

Field Training Officer - Academy, West Sacramento (40 Hours)

10/2010

CERT. APP. 60

Case 4:17-cr-00578-JS\A/ Document 64 Filed 11/13/18 Page 16 of 17
■1

►

DRUG ENFORCEMENT / EVALUATION EXPERIENCE TO DATE
Estimated Enforcement Contacts
Estimated Evaluations/investigations

16,000

Estimated Dill Arrests
Estimated DUE Arrests

620
195

Estimated ORE Evaluations

134

2;950

EXPERtEKCE IN TESTIFYING FOR DRUG REtATEP CASES
Estimated Number of Court Appearances
Estimated Number of Alcohol Cases
Estimated Number of Drug Influence Cases
Estimated Number of Drug Possession, Or Drug Sales Cases

250
181
20
20

COURTROOM EXPERT QUALIFICATIONS
Number of Times Qualified as an Expert
SubjectMatter for Expert Qualification

10
PASExpert/ORE

Courses Taught
ORE Cert site located at the CHP Oakland Area Office
A.R.I.D.E. (CHP, Out of State, Multiple Countries, Local Allied Agencies)
DRE Recertification Course

FTO School: located: at the CHP Academy in WestSacramento
FTO Module updates at the CHP Oakland Area Office
CHP Cadet DUI wet labs at the CHP Academy in West Sacramento

Awards and Recognition
Captain's Commendation
MAAD State Hero Award
Oakland Area DUI Warrior Award
Golden Gate Division Oakland Officer of the Year
MAAD Century Award
Oakland Area Office, Officer of the year
MAAD Award

2018
2014
2014
2014
2013
2013
2009-2016

CERT. APR. 61

i

Case 4:17-cr-00578-JS\A/ Document 64 Filed 11/13/18 Page 17 of 17
9

Outside reading, study, and websites
Physicians' Desk Reference
High Times
Alameda County Point of View
lawyers Weekly
Peace Officer legal Source Book

©rag ID Bible
www.erowid.org
www.dancesafe.org

www.norml.org
www.leafly.com
www.legtnfo.iegisl ature.ca .go

1

CERT. APP. 62

Case 4:17-cr-OOS78-^^o§^^|^|jJc^0.gQ|TPaBe ! of i
I*

NORTHERN DISTRICT OF CALIFORNIA
CRIMINAL MINUTE ORDER
Date: June 19,2918

Time in Court: 84 minutes

Judge: Jeffrey S. White
Case No.: CR-17-00578 JSW
United States of America v. David Coneriy
Defendant
Present (X > Not Present ( ) In-Custody ( X)
William Gullotta
U.S. Attorney

Alan Dressier
Defense Counsel

Deputy Clerk: Jennifer Ottoiini

Court Reporter: Diane Skiflman
PROCEEDINGS

REASON FOR HEARING: Change of Plea
RESULT OF HEARING:
Defendant indicated he has questions to ask the Court.
1:14 pm:

1:23 pm:
1:25 pm:
2:13 pm:

Under Seal Hearing held with defendant and his counsel.
The US Attorney and spectators are excused from the courtroom.
The courtroom is unsealed. The US Attorney is now present.
The matter is passed to the end of the calendar.

Court reconvened.

The Defendant is sworn.
The Court voir dired the Defendant re: Change of Plea
The Defendant pled guilty to Count f of the Indictment in violation of
18 USC § 922(g)(1) - felon in possession of firearm and ammunition.
The Court accepted the plea of guilty. The Application for Entry of Guilty Plea
and Order Thereon is signed by the Court and ordered filed.
The Defendant is referred to the US Probation Office for the preparation
of a pre-sentence report.
The Defendant remains in U. S. Marshal custody.
Case Continued to 10-2-18 at 1:00 p.m. for Judgment and Sentencing

CERT. ARP. S3

■(

f

Case 4:17-cr-00578-JSW Document 58 Filed 06/20/18 Page 1 of 10
&
t

'&

2
3
4

5

IN THE UNITED STATES DISTRICT COURT

6
FOR THE NORTHERN DISTRICT OF CALIFORNIA

7

8
9 |j UNITED STATES OF AMERICA,
10
11

I
o

12

No. CR17-0

Plaintiff,

APPLICATION FOR PERMISSION TO
ENTER PLEA OF GUILTY AND ORDER
ACCEPTING PLEA
(Fed. R. Crim. P., Rules 10 and H)

v.
PAVED CLAYTON CON ERLY»

U
«
T

5

a

a

Defendant.

13

.!■

#4

r

00

4A

JSW

"Hie defendant represents to the Court:
1.

My full true name is DAVID CLAYTON CONERJLY . 1 am ^T_0 years of age. I

97 havegone to school up Jo and including

occupation has been dh f
£
19 against me be in my true name,
20
21
22

2.

/A

.. My most recent
/feg&jffirequest that all proceedings

I am represented by a lawyer; his/her name is

ALANAJDRESSLER
3.

I received a copy of the indictment/information (as used in the Application the term

23 indictment indudes information) before being called upon to plead. T have read the indictment or a

24

translator who speaks,

.read it to me, and 1 have discussed the indictment with

25 my lawyer.
26
27
28

I fully understand every charge made against me, I understand these charges to be:.
18 U.S.C. SECTION 922(kX1) FELON IN POSSESSION OF FIREARM AND____________
AMMUNITION (COUNT ONE) AND FORFEITURE PER 18 U.S.C SECTION 924 (d)(1) and

CERT. APP. 64

I

/

Case 4:17-cr-00578-JSW Document 58 Filed06/20/18 Page 2 of 10

1

28 IJ.S.C. SECTON 2461 (cl

4.

1 havetold my

2 lawyer all the facts and circumstances known to me about die charges made against me in the
3 indictment. 1 believe that my lawyer is fully informed on all such matters.

4
5
6

5.1 know that the Court must be satisfied thatthereis a factual basis for a plea of

7 "GUILTY" before my plea can be accepted. I represent to the Court that I did the following acts in

8 connection with the charges made against mein Counts
9

ONE - SEE ATTACHMENT MA”

10

r
3

o
O

f.S3
Q

11
12 (In the above space defendant must set out in detail in his/her own handwriting what he/she
13 did. If more space is needed, add a separate page.)

6.
My lawyer has counseled and advised me on the nature of each charge, all lesser
m
o
.35 included charges, all penalties and consequences of each charge, all possible defenses that I may
have in this case and the constitutional rights I am waiving.

.1s

7

7.

I understand that my constitutional rights are as follows:

i

(a)

the right to a speedy and public trial byjury;

(b)

the right to see all of the evidence against me and to hear ati witnesses caHed
to testify against me and to have my attorney cross-examine them;

(c)

die right to use the power and process of the court to compel the production of
any evidence, including the attendance of any witnesses in my favor;

(d)

the right to the assistance of a lawyer at all stages of the proceedings including
trial and appeal and if 1 cannot afford one, to have the court appoint one to
represent me without cost to me or based upon my ability to pay,

(e)

die right to remain silent or to take the witness stand at my sole option and if I
do not take the witness stand, no inference of guilt may be drawn from such
failure andthe jury mustbe so advised;

26

(0

the right against self-incrimination;

27

(g)
(h)

the righttoappeaf from an adverse judgment;
the-right.tQ
out-any limitatiaiycontaiBedin-myrplea
agreement.

P

19
20

21
22
23
24

25

28

CERT. APP. 65

I.

Case 4:17-cr-005?8-JSW Document 58 Filed06/20/18 Page3ofl0

8. v I fcnowthatIn^rplead "NOTGinLTY0toanyoflfense charged apinstmeand

t

2 exercise all of my lights as listed above.

9,

3

I know that if I plead "GUILTY" I am giving up all of the rights enumeratedin

4 paragraph 7 and that there will be no trial either before a court or jury.

5
10.

6

I know that ifl plead "GUILTY" the result of my plea is more than just anadmission

7 or confession of guilt and that it will result in my conviction, and that further, the court may impose
8 the same punishment as iflhadTpleaded "NOT GUILTY," stood trial and been convicted by a jury.

11.

9
10

winch the law provides and the various provisions of the Sentencing Guidelines that may applyto

11 me. I understand that the maximum punishment for the ofiense(s) charged in Counts)

ta

12

4*

13 8 250.000

6

I
i

My lawyer has discussed with me tire maximum and minimum, if any, punishments

ONE

of the indictment is 10

years of imprisonment, aline of

j, and a period of 3 ____ years supervised release. I understand that

14 there is a mandatory minimum punishment of N/A______ years imprisonment for the offense(s)
15 charged in Count(s).

__ . I also understand that the minimum period ofsupervised

3

16 release which the court may impose is.

1a

17 condition of supervised release the release may be revoked and I may be sentenced to all or a partof

Vk

P

.(ifapplicable) and that ifI violate any

18 tire term of supervised release imposed in addition to any other term of imprisonment which I have
19 received.
20
21

I understand that I may be assessed the costs of confinement and/or supervision. 1 understand
that I must pay a penalty assessment of $100.00 per count to which I plead (or $25.00 in the caseof

22 misdemeanor counts). I understand that I may be ordered to pay restitution in an ammmtdetenninaH
23
24

by the court
I know that the sentence iwiU receive is solely a matter withrn de control offhe Judge. I

25 understand that the Judge will make no decision regarding my sentence »ntil the Judge has read and
26 considered the pre-sentence investigation report prepared and submitted to the court by the Probation
27 Department

28
3

CERT. APR. 66

Case 4:17-cr-00578-JSW Document 58 Filed 06/20/18 Page 4 of 10

1

I also understand that the court and counsel cannot promise what sentence or sentencing

2 my will be set and that these calculations will depend upon the Sentencing Guidelines as they
3 apply to me. I have been advised dial the court may sentence within the guideline rangedetermined
4 by die Probation Department or may depart upward or downward from the range. However. no

5 promises have been made to me as to the range or departure.
6

12.

If I am on probation, supervised release or parole in this or any other court, [know

7 that by pleading guilty here my probation, release or parole may be revoked and I may be required to
8 serve time in that case, which may be consecutive, that is, in addition to any sentence imposed upon

9 me in tins case.
10
u
3
e

U
&
"E

11

has promised or suggested that 1 will receive a lighter sentence, or probation, or any other form of

13 Agreement I have signed, stated on the record in my entry of plea oras follows:_____________
THIS IS AN OPEN PLEA: THE GOVERNMENT HAS MADE NO PROMISES TO ME OR

00

Q

MY ATTORNEY AND THERE IS NO PLEA AGREEMENT

*

5

*6

T5

7

2
XI
s
P

I declare that noofficer or agentofanybranch of govemment(federal, state or local)

12 leniency, nor have any other promises been made if I plead “GUILTY," in the Plea

•M

</>

1-3.

(In the space above insert any promises or concessions made to the
defendant or to his/her attorney.)
Ifanyone else made such a promise or suggestion, except as noted in the previous sentence, i know

a
u.

that person had no authority to do it. No one has forced or coerced me into entering this plea. My
19 willingness to plead guilty (doeS^^n^)esult from prior discussions between ray attorney and

20

21
22

the government's attorney. (If it does, slate any factors that influenced you that are not reflected in
the plea agreement.)

23
24

25
26
27
28

14.

I believe that my lawyer has done all that a lawyer could do to counsel and assist me,

and I am satisfied with the advice and help he/she has given me.
15.

I know that the court will not permit anyone to plead "GUILTY" who maintains

he/she is innocent andi with that m mind and because 1 am "GUILTY,* I respectfully request the
4

CERT. APP. 67

'

¥

J

\

Case 4:17-cr-00578-JSW Document 58 fifed 06/20/18 Page 5 of 10

I court to accept my plea of "GUILTY" and to have the clerk eater my plea of"GUILTY" as follows:
2

mm .TV TO COUNT 1:1 ALSO AGREE TO FORFEIT THE .40 GLOCKHANDGUN

3

AND 17 ROUNDS OF AMMIINITION REFERRED TO IN THE INDICTMENT
16.

4

My mind

5 is clear, i am not under the influence of alcohol or drugs and I am not under a doctor's care. The
6 only drugs, medicines or pills thatltook within the past seven days are:
7
8

9
TO (Ifnone, so state.)

11
*•
9
o
U

12

17.

i OFFER MY PLEA OF "GUILTY" FREELY AND VOLUNTARILY AND OF

13 MY OWN ACCORD AND WITH FULL UNDERSTANDING OF ALL THE MATTERS SET
1

f f*
£

CO

Q

2

35 CERTIFICATE OF MY LAWYER WHICH IS ATTACHED TO THIS APPLICATION. IN

1

T3

§a
P

FORTH IN THE INDICTMENT AND IN THIS APPLICATION AND IN THE

16 OFFERING MY PLEA OF "GUILTY" 1 FREELY AND VOLUNTARILY WAIVE (give up)
17 THE CONSTITUTIONAL RIGHTS GUARANTEED TO ME AS STATED IN PARAGRAPH

£

38 7 ABOVE.

Urn

19

18.

I waive the reading ofthe indictment in open court, ami I request the court to enterray

20 pleaof "GUILTY" as set forth in Paragraph 15 of this application.

21

19.

I understand that all of the above statements wilt be made in open court underoatfr

22 and that any false statements may be used against me in a prosecution for perjury or false statement
;

23 which is a felony.
24

20.

/

I am proficient enough in English to read the above and have read and folly

25 understand it.
26

I am not proficient enough in English. I speak and understand

27

_____which is my native language. The above was read to me in

28

_________ and I folly understands.
5

CERT. APR. 68

i

♦ w

>

Case 4:17-er-00578-JSW Document 58 Filed 06/20/18 Page 6 of 10

1

Sifted t>y me in open court in the presence of my attorney tins dote: VffVVtfjQ

2

Defendant’s Signature

\

4

5
y'

8
7
8

9
10
♦»

st-

o
U

11
12
13

fa

4

.52

|I fI6
■O

' £e

P

I7
Ifa

19
20

21
22
23
24

25
26
27
28

6

CERT. APP. 69

<

%i>

»

Case 4:17-cr-00578-JSW Document 58 Rled06/20/18 Page 7 of 10

PATTON

1
2

^ hereby certify that I am a duly

3

interpreter indsEngli^i and,

4
5

I read all of the above to die defendant, that he/she stated he/she fully understood it, and 1 am

6 satisfied that his/her answer is true and correct.
7
8

9

Date
Interprets Signature

10
11

;

9-

12

!

tr

3

ra
U

I
Q

i-

4

1

5

•B

17

3

18

£

6

19
20
21
22
23
24

25
26
27

|

28

!
7

CERT. APP. 70

>. l y*

»
Case 4:17-er-00S78-JSW Document 58 Filed 06/20/18 Page 8 of 10

:i
rgRTIFlCATR OR fflIINSEL

1
2

The undersigned, as lawyer and counselor for the defendant
4 ''/TF/ZsJijj. hereby certifies:
3

5

17

7

i

I have read and fully explained to the defendant and believe he/she fufly understands

6 the allegations contained in the indictment of this case, the defenses he/she may have to each and
7

every one of the allegations and the consequences of a plea of "GUILTY," including the pertinent

8

Sentencing Guidelines provisions and maximum and minimum penalties.

9
ID
il
t:
3
o
U
tJ

12
3

xw

14

•m

Q

co
S

3

1 believe the defendant fully understands the constitutional rights he/she is waiving

and that by entering a plea of"GUILTY” he/she is waiving each and every one ofthose rights.
3.

Nothing has come to my attention which causes me to believe that the defendant lacks

the ability to understand anything contained in the attached application or that at the time of entering
his/her plea he/she is under the influence ofany drug or alcohol.
4.

The plea of "GUILTY" offered by the defendant in Paragraph 15 accords with my

5 understanding of the facts he/she related to me and ^consistent with my advice to the defendant.
6
5.
In my opinion the defendant's waiver of reading of the indictment in open court as

1

a
•3
s

2.

F
2
518

ta*

provided by Rule 10 is voluntarily and understanding^ made, and I recommend to the court that the
waiver be accepted by die court.

J9

Defendant has readHhcPica Agreement she/he signedin die matter and I believe

20

shc/ho fully UudujUimlU'it. I certify that no promises have been made to the defendant by the

21

government or mysel^otim Uaui-UiidMHUUmtei i| in.il...

22

psombeg 1 must state them on the record before my client and the court.

23

7.

jjjps

1

mtand if there arc cuoh other

In my opinion die plea of "GUILTY" offered by the defendant in Paragraph 15 of the

I

24

application is voluntarily and understanding^ made. I recommend that the court accept the plea of
25 "GUILTY."
26
Signed by me in open court in the presence ofthe defendant above-named mid after foil
27

discussion of the commits ofthis certificate with the defendant tbi

28

Attorney for the Defendant

*

8

1:
CERT. APP. 71

*V *
Case 4:17-cr-00578-JSW Document 58 Filed 06/20/18 Page 9ofl&

ATTACHMENT A TO APPLICATION FOR PERMISION TO ENTER PLEA OF GUILTY
AND ORDER ACCEPTING PLEA
\ \ \
& *

On 4e n'.3W o£

<*resU ^

Wr\S’btnA N«<aW

0 se^eKO-tiCn
^txcWAir^ ttevw

.

^Q^\iSo^\^eo V>\x V*lAcMtfeW CMn^.o^S rftuurcf bw Speer jWw

Yo^o6
W \ju*
W

of bkie/jCw^ on co^d ^ ^F'i
**, gun c^J Uli^ X K^a
u*v^dj
^
VfA^r^^r tlt^c^cHo^e wour

C^.CyU'iCO AYtm AVjL ^oNorhMCO^ X0*^
<too*rc
"Ha <3^n arxd Wlkfe 'tnvo\vcd
4K«'5
6^<l \oex--e, <\o^ fAanuftitVwna m CftAi&r-n/* 41/^A^p

WUWvfers^k amerce
6#&

CERT. APP. 72

* ''fcr* 4*

!

Case 4:17-cr-00578-JSW Document 58 Fited 06/20/18 Page 10 of 10

■»

\
ORDER

I

2
3
4

I find that:
1.
The defendant enters this plea of guilty freely and voiuntariiy and not out of

5 ignorance, inadvertence, fear or eoercfaHiL
2.
The defendant understandsand knowingly, fieety and voluntarily waives his
6
7 constitutional rights.
8

3,

9 its contents.
4. The defendant has admitted the essential elements of the crime charged.
10
%
o
o

u

Z

11

12 entered as prayed for in the Application aid as recommended In thecertificaie ofhis lawyer.
3

14
15
at

1•as
P

IT is THEREFORE ORDERED that the defendant's plea of "GUILTY" be accepted and

Done In open court this date:

6

h i hr.

6

1

17.

1Y S. WHITE
_
3 STATES DISTRICTJUDGE

8

19
20
21
22

i

23
24

25
26
27

28

9

CERT. APP. 73

